No. _________
IN THE

Supreme Court of the United States

d
SKYLER THOMAS RICE ,

Petitioner,

—v.—

ED GONZALEZ , SHERIFF

OF

HARRIS COUNTY,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI
David D. Cole
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
915 15th Street, NW
Washington, D.C. 20005
Cecillia D. Wang
Jennesa Calvo-Friedman
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
125 Broad Street
New York, NY 10004

Kathryn Huddleston
Andre Segura
Counsel of Record
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION OF TEXAS
5225 Katy Freeway, Suite 350
Houston, TX 77007
(713) 942-8146
asegura@aclutx.org
Aaron Gold
ORRICK , HERRINGTON
& SUTCLIFFE LLP
51 West 52nd Street
New York, NY 10019

Counsel for Petitioner

QUESTION PRESENTED
Petitioner Skyler Thomas Rice, proceeding pro se,
sought immediate release from pretrial detention at
the Harris County Jail in light of the danger of
contracting COVID-19 at that facility. The district
court construed Mr. Rice’s claim as seeking relief
under 42 U.S.C. § 1983 and dismissed the case,
assessing a strike against Mr. Rice for purposes of the
Prison Litigation Reform Act. Mr. Rice, still pro se,
appealed the district court’s judgment. The named
defendant, the Harris County Sheriff, did not file a
responsive brief.
Before the Fifth Circuit could rule on the appeal—
indeed, seven weeks before it ruled—Mr. Rice was
transferred to Texas Department of Criminal Justice
custody at the Gist State Jail in Beaumont, Texas, in
order to serve his sentence. Thus, his pretrial
detention at the Harris County Jail was over, and his
claim for release from that detention was moot. The
Fifth Circuit, unaware of this development, issued a
published opinion in which it construed Mr. Rice’s
claim as brought in habeas, and then held that habeas
was unavailable for his claim. As the Fifth Circuit
recognized, this decision created a circuit split with the
Sixth Circuit.
After the Fifth Circuit issued its opinion but before
the mandate issued, Mr. Rice retained counsel and
notified the court that he had not been in Harris
County custody at the time it issued its opinion.
Accordingly, he indicated to the court of appeals, it
lacked jurisdiction to decide the case when it issued its
opinion. He therefore sought vacatur of the published
opinion and dismissal of the appeal. Respondent did
not oppose the request.
Nonetheless, without
i

explanation, the court of appeals denied vacatur and
dismissal.
The question presented is:
Whether the court of appeals’ judgment should be
vacated, where the appeal was moot at the time the
opinion issued because Petitioner two months earlier
had been transferred from the pretrial detention that
was the only subject of his case.
PARTIES TO THE PROCEEDING
Petitioner is Skyler Thomas Rice, formerly a pretrial
detainee at the Harris County Jail in the custody of
the Harris County Sheriff and now a prisoner at the
Gist State Jail in the custody of the Texas Department
of Criminal Justice.
Respondent is the Sheriff of Harris County.
STATEMENT OF RELATED PROCEEDINGS
Rice v. Gonzalez, No. 4:20-cv-01356 (S.D. Tex. Aug,
6, 2020) (order dismissing Mr. Rice’s habeas petition
separately docketed by the Southern District of
Texas).

ii

TABLE OF CONTENTS
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . .

i

PARTIES TO THE PROCEEDING . . . . . . . . . . .

ii

STATEMENT OF RELATED
PROCEEDINGS . . . . . . . . . . . . . . . . . . . . . . . . .

ii

TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . .

vi

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . .

1

OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . .

2

JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . .

2

CONSTITUTIONAL PROVISIONS
INVOLVED . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

2

STATEMENT OF THE CASE . . . . . . . . . . . . . . . .

3

REASONS FOR GRANTING
THE PETITION . . . . . . . . . . . . . . . . . . . . . . . . .

6

I.

II.

The Court of Appeals’ Decision Exceeded
Its Authority Under Article III Because
the Case Was Moot When the Court
Ruled . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
Because the Case Was Moot When
Decided, Dismissal and Vacatur
Are Required . . . . . . . . . . . . . . . . . . . . . . . .

iii

8

11

III. The Underlying Decisions Also Require
Vacatur Because Mr. Rice’s Case
Became Moot While His Appeal Was
Underway . . . . . . . . . . . . . . . . . . . . . . . . . . .

14

IV. Summary Vacatur and Remand is an
Appropriate Exercise of This Court’s
Supervisory Power . . . . . . . . . . . . . . . . . . .

16

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

19

APPENDICES
APPENDIX A: Decision of the United States
Court of Appeals for the Fifth Circuit,
dated May 7, 2021 . . . . . . . . . . . . . . . . . . . . . . .

1a

APPENDIX B: Order of the United States
Court of Appeals for the Fifth Circuit,
dated April 16, 2021 . . . . . . . . . . . . . . . . . . . . . .

3a

APPENDIX C: Order of the United States
Court of Appeals for the Fifth Circuit,
dated March 22, 2021 . . . . . . . . . . . . . . . . . . . . .

4a

APPENDIX D: Motion to Vacate the Panel
Opinion in the United States Court of
Appeals for the Fifth Circuit,
dated March 17, 2021 . . . . . . . . . . . . . . . . . . . . .

5a

APPENDIX E: Order of the United States
Court of Appeals for the Fifth Circuit,
dated March 11, 2021 . . . . . . . . . . . . . . . . . . . . .

21a

iv

APPENDIX F: Petition for Panel Rehearing
in the United States Court of Appeals for
the Fifth Circuit, dated March 2, 2021 . . . . .

22a

APPENDIX G: Decision of the United States
Court of Appeals for the Fifth Circuit,
dated February 2, 2021 . . . . . . . . . . . . . . . . . . .

34a

APPENDIX H: Brief Requesting Reversal of
District Court Order of Dismissal in the
United States Court of Appeals for the Fifth
Circuit, dated September 27, 2020 . . . . . . . . .

37a

APPENDIX I: Order of Dismissal by the United
States District Court for the Southern District
of Texas, dated April 28, 2020 . . . . . . . . . . . . .
41a
APPENDIX J: Memorandum of Law in the
United States District Court for the Southern
District of Texas, dated April 15, 2020 . . . . .
45a

v

Cases

TABLE OF AUTHORITIES

Aamer v. Obama,
742 F.3d 1023 (D.C. Cir. 2014) . . . . . . . . . . . .

17

Arizonans for Off. Eng. v. Arizona,
520 U.S. 43 (1997). . . . . . . . . . . . . . . . . . . . . . . .

15

Azar v. Garza,
138 S. Ct. 1790 (2018) . . . . . . . . . . . . . . . . . . . .

7, 14

Ex parte Baez,
177 U.S. 378 (1900) . . . . . . . . . . . . . . . . . . . . . .

8

Bell v. Wolfish,
441 U.S. 520 (1979) . . . . . . . . . . . . . . . . . . . . . .

17

Burke v. Barnes,
479 U.S. 361 (1987) . . . . . . . . . . . . . . . . . . . . . .

14

California v. Texas,
593 U.S. __, No. 19-840, 2021 WL 2459255
(U.S. June 17, 2021) . . . . . . . . . . . . . . . . . . . . . .

12

Camreta v. Greene,
563 U.S. 692 (2011) . . . . . . . . . . . . . . . . . . . . . .

15

Carney v. Adams,
141 S. Ct. 493 (2020) . . . . . . . . . . . . . . . . . . . . .

11

Cheek v. Warden of Fed. Med. Ctr.,
835 F. App’x 737 (5th Cir. 2020) . . . . . . . . . . .

16

Church of Scientology of Cal. v. United States,
506 U.S. 9 (1992) . . . . . . . . . . . . . . . . . . . . . . . . .

11

Cooper v. Sheriff, Lubbock Cty., Tex.,
929 F.2d 1078 (5th Cir. 1991) . . . . . . . . . . . . .

10

vi

Cooter & Gell v. Hartmarx Corp.,
496 U.S. 384 (1990) . . . . . . . . . . . . . . . . . . . . . .

11

Corgain v. Miller,
708 F.2d 1241 (7th Cir. 1983) . . . . . . . . . . . . .

9

Danforth v. Minnesota,
552 U.S. 264 (2008) . . . . . . . . . . . . . . . . . . . . . .

16

Duke Power Co. v. Greenwood Cty.,
299 U.S. 259 (1936) . . . . . . . . . . . . . . . . . . . . . .

14

Edwards v. Johnson,
209 F.3d 772 (5th Cir. 2000) . . . . . . . . . . . . . .

10

Fassler v. United States,
858 F.2d 1016 (5th Cir. 1988) . . . . . . . . . . . . .

8

Ferrell v. Estelle,
573 F.2d 867 (5th Cir. 1978) . . . . . . . . . . . . . .

14

Flast v. Cohen,
392 U.S. 83 (1968). . . . . . . . . . . . . . . . . . . . . . . .

12

Frazier v. Heebe,
482 U.S. 641 (1987) . . . . . . . . . . . . . . . . . . . . . .

16

Great W. Sugar Co. v. Nelson,
442 U.S. 92 (1979). . . . . . . . . . . . . . . . . . . . . . . .

14

Hernandez v. Garrison,
916 F.2d 291 (5th Cir. 1990) . . . . . . . . . . . . . .

10

IAL Aircraft Holding, Inc. v. F.A.A.,
216 F.3d 1304 (11th Cir. 2000) . . . . . . . . . . . .

13

Jackson v. Clements,
796 F.3d 841 (7th Cir. 2015) . . . . . . . . . . . . . .

9

Karcher v. May,
484 U.S. 72 (1987). . . . . . . . . . . . . . . . . . . . . . . .

14

vii

Mayorkas v. Innovation Law Lab,
594 U.S. __, No. 19-1212, 2021 WL 2520313
(U.S. June 21, 2021) . . . . . . . . . . . . . . . . . . . . . .

14

Medina v. People of the State of Cal.,
429 F.2d 1392 (9th Cir. 1970) . . . . . . . . . . . . .

9

Muwakkil v. Robinson,
143 F. App’x 512 (4th Cir. 2005) . . . . . . . . . . .

11

Nelson v. Heiss,
271 F.3d 891 (9th Cir. 2001) . . . . . . . . . . . . . .

10

Powers v. Schwartz,
587 F.2d 783 (5th Cir. 1979) . . . . . . . . . . . . . .

8

Rendelman v. Rouse,
569 F.3d 182 (4th Cir. 2009) . . . . . . . . . . . . . .

10

Rice v. Gonzalez,
No. 4:20-cv-01356, 2020 WL 4569660
(S.D. Tex. Aug. 6, 2020) . . . . . . . . . . . . . . . . . . .

3, 16

Shokeh v. Thompson,
375 F.3d 351 (5th Cir. 2004) . . . . . . . . . . . . . . 12, 13
Snow v. United States,
118 U.S. 346 (1886) . . . . . . . . . . . . . . . . . . . . . .

13

Spencer v. Haynes,
774 F.3d 467 (8th Cir. 2014) . . . . . . . . . . . . . .

17

Spencer v. Kemna,
523 U.S. 1 (1998) . . . . . . . . . . . . . . . . . . . . . . . . .

10

St. Pierre v. United States,
319 U.S. 41 (1943). . . . . . . . . . . . . . . . . . . . . . . .

11

Thompson v. Choinski,
525 F.3d 205 (2d Cir. 2008) . . . . . . . . . . . . . . .

9

viii

Thompson v. Smith,
719 F.2d 938 (8th Cir. 1983) . . . . . . . . . . . . . .

9

Thorne v. Warden, Brooklyn House of Det. for Men,
479 F.2d 297 (2d Cir. 1973) . . . . . . . . . . . . . . .
9
TransUnion LLC v. Ramirez,
594 U.S. __, No. 20-297, 2021 WL 2599472
(U.S. June 25, 2021) . . . . . . . . . . . . . . . . . . . . . .

12

Trump v. Hawaii,
138 S. Ct. 377 (2017) . . . . . . . . . . . . . . . . . . . . .

14

Trump v. Int’l Refugee Assistance,
138 S. Ct. 353 (2017) . . . . . . . . . . . . . . . . . . . . .

14

U.S. Bancorp Mortg. Co. v. Bonner Mall P’ship,
513 U.S. 18 (1994). . . . . . . . . . . . . . . . . . . . . . . .

15

United States v. Miller,
685 F.2d 123 (5th Cir. 1982) . . . . . . . . . . . . . .

13

United States v. Munsingwear, Inc.,
340 U.S. 36 (1950). . . . . . . . . . . . . . . . . . 13, 14, 15, 16
United States v. Sanchez-Gomez,
138 S. Ct. 1532 (2018) . . . . . . . . . . . . . . . . . . . .

12

Versata Software, Inc. v. Callidus Software, Inc.,
780 F.3d 1134 (Fed. Cir. 2015) . . . . . . . . . . . .

12

Walker v. Warden,
593 F.2d 21 (5th Cir. 1979) . . . . . . . . . . . . . . .

13

Wilson v. Williams,
961 F.3d 829 (6th Cir. 2020) . . . . . . . . . . . . . .

5

Statutes
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . .

2

42 U.S.C. § 1983 . . . . . . . . . . . . . . . . . . . . . . . . . . . .

4

ix

Constitutional Provisions
U.S. Const. amend. V . . . . . . . . . . . . . . . . . . . . . . .

3

U.S. Const. amend. XIV . . . . . . . . . . . . . . . . . . . . .

3

U.S. Const. Art. III, § 2 . . . . . . . . . . . . . . . . . . . . passim
Other Authorities
Stephen M. Shapiro et al., Supreme Court
Practice § 5.13 (10th ed. 2013) . . . . . . . . . . . .

x

7

PETITION FOR A WRIT OF CERTIORARI
Skyler Thomas Rice respectfully petitions for a writ of
certiorari to review the judgment of the United States
Court of Appeals for the Fifth Circuit in this case.
INTRODUCTION
The court below unknowingly issued a decision
when it indisputably lacked Article III jurisdiction to
do so. Mr. Rice’s lawsuit challenged his pretrial
detention at the Harris County Jail. Yet he was no
longer detained there or in the custody of the
Respondent, the Harris County Sheriff, when the court
below ruled. When Mr. Rice informed the court of its
lack of jurisdiction, however, the court denied multiple
requests to vacate its decision and dismiss the appeal,
without explanation—even though the Respondent did
not oppose vacatur. Because the court below exceeded
its Article III authority, and then refused to vacate its
decision and dismiss the appeal after learning of its
error, Mr. Rice seeks this Court’s intervention.
The Fifth Circuit’s decision, which created a circuit
split, was advisory on issuance. Under Article III, the
courts have authority only to decide live cases or
controversies, and the decision issued by the court of
appeals came in a case that presented no such dispute.
Moreover, Mr. Rice’s case became moot while it was on
appeal, also warranting vacatur (of both the court of
appeals’ and the district court’s decisions). Mr. Rice
therefore respectfully requests that this Court grant
certiorari, vacate the court of appeals’ decision, and
remand for vacatur of the district court’s judgment and
dismissal of the case without prejudice by the district
court.

1

OPINIONS BELOW
The court of appeals’ opinion affirming the district
court (Pet. App. 34a-36a) is reported at 985 F.3d 1069.
The court of appeals’ decision denying rehearing (Pet.
App. 21a) is unreported. The court of appeals’ decision
denying Mr. Rice’s unopposed motion for vacatur and
dismissal (Pet. App. 4a) is unreported. The court of
appeals’ decisions denying Mr. Rice’s unopposed
motion to recall the mandate (Pet. App. 3a) and
denying rehearing en banc as to that motion (Pet. App.
1a-2a) are likewise unreported.
The district court’s opinion (Pet. App. 41a-44a) is
unreported.
JURISDICTION
The opinion affirming the district court was issued
on February 2, 2021. The court of appeals denied: (i)
rehearing on March 11, 2021; (ii) Mr. Rice’s unopposed
motion for vacatur and dismissal on March 22, 2021;
and (iii) Mr. Rice’s unopposed motion to recall the
mandate on April 16, 2021. The court of appeals
denied rehearing en banc as to Mr. Rice’s unopposed
motion to recall the mandate on May 7, 2021.
The Court has jurisdiction under 28 U.S.C.
§ 1254(1).
CONSTITUTIONAL PROVISIONS
INVOLVED
Article III, Section 2 of the United
Constitution delimits the scope of the
judiciary’s authority, including that “[t]he
Power shall extend to all Cases, in Law and

2

States
federal
judicial
Equity,

arising under this Constitution [and] the Laws of the
United States . . . .”
The Fifth Amendment to the Constitution provides
that “[n]o person shall . . . be deprived of life, liberty,
or property, without due process of law . . . .”
Section 1 of the Fourteenth Amendment to the
Constitution provides, in relevant part, “nor shall any
State deprive any person of life, liberty, or property,
without due process of law . . . .”
STATEMENT OF THE CASE
In April 2020, Mr. Rice was in pretrial custody at the
Harris County Jail. He sought his immediate release
from pretrial detention in two pro se filings, treated as
distinct proceedings by the district court.
One of the two cases docketed by the district court’s
clerk’s office was a pro se petition for writ of habeas
corpus or, alternatively, a request for injunctive relief.
Rice v. Gonzalez, No. 4:20-cv-01356, Dkt. 1 (S.D. Tex.
Apr. 15, 2020). That case was adjudicated by Judge
Vanessa D. Gilmore, who denied the petition and
dismissed the case in August 2020. Rice v. Gonzalez,
No. 4:20-cv-01356, 2020 WL 4569660 (S.D. Tex. Aug.
6, 2020). Mr. Rice did not appeal that decision.
This petition concerns the second case, docketed and
adjudicated separately by the district court. This case
was initiated by Mr. Rice’s pro se memorandum of law
in support of a motion for a temporary restraining
order and preliminary injunction, intended to
accompany the habeas petition. The district court’s
clerk’s office treated it as a distinct matter and
assigned it to a separate judge, Judge David Hittner.
The second case challenged Mr. Rice’s pretrial
confinement in the Harris County Jail and sought
3

“release . . . on his own recognizance for the pendency
of his criminal proceedings.” Pet. App. 45a. His
underlying claim was that his continued pretrial
detention at the Harris County Jail violated the Fifth
and Fourteenth Amendments’ Due Process Clauses.
Pet. App. 45a-46a, 49a-51a. He alleged that he was at
increased risk of a serious adverse health outcome
were he to contract COVID-19 due to his underlying
health conditions and that his pretrial detention at the
Harris County Jail “exposed [him] to a substantial risk
of serious harm.” Pet. App. 49a, 52a. In support of
this contention, he highlighted specific risks he faced
because of the unsafe conditions at the Harris County
Jail. Pet. App. 49a. Mr. Rice alleged that his ongoing
pretrial detention demonstrated that the Harris
County Sheriff disregarded the risk that COVID-19
posed to Mr. Rice at the Harris County Jail. Pet. App.
52a-53a.
District Judge Hittner construed Mr. Rice’s case as
brought pursuant to 42 U.S.C. § 1983 and not habeas
corpus. Pet. App. 42a-43a. On April 28, 2020, Judge
Hittner dismissed the case and assessed a strike
against Mr. Rice for purposes of the Prison Litigation
Reform Act. Pet. App. 44a. Mr. Rice then appealed
pro se to the Fifth Circuit, which docketed his opening
brief on October 1, 2020. Pet. App. 37a. The Sheriff of
Harris County did not file a brief before the Fifth
Circuit.
On December 15, 2020, some seven weeks before the
Fifth Circuit ruled on his case, Mr. Rice’s detention at
the Harris County Jail came to an end. He had been
sentenced to incarceration by the state for possession
of controlled substances. The Texas Department of
Criminal Justice (“TDCJ”) therefore took custody of
him for service of his sentence at the Gist State Jail in
Beaumont, Texas, where he remains to this day.
4

On February 2, 2021, unaware that Mr. Rice was no
longer in the custody of the Harris County Sheriff at
the Harris County Jail, the Fifth Circuit issued a
published opinion affirming the district court’s denial
of relief. Pet. App. 34a-36a. The Fifth Circuit
construed Mr. Rice’s claim as sounding in habeas and
concluded that it “thus ha[d] jurisdiction over the
case.” Pet. App. 35a. It mistakenly described Mr. Rice
as “a detainee in the Harris County, Texas, jail
awaiting trial.” Pet. App. 34a. But as noted above, at
the time of the decision, Mr. Rice was in fact not a
detainee in the custody of the Harris County Sheriff
but was instead incarcerated in TDCJ custody at the
Gist State Jail. TDCJ was not a respondent in the
case, and the case made no mention of, much less any
claims regarding confinement at, the Gist State Jail.
The Fifth Circuit ruled that habeas was not
available as a vehicle to challenge Mr. Rice’s pretrial
detention. Pet. App. 35a. It acknowledged that its
published opinion created a circuit split with the Sixth
Circuit. Pet. App. 36a n.2 (noting divergence from
Wilson v. Williams, 961 F.3d 829 (6th Cir. 2020)).
Following issuance of the opinion, Mr. Rice retained
counsel, who promptly sought rehearing, bringing to
the Fifth Circuit’s attention that Mr. Rice had not been
in the custody of the Harris County Sheriff, the only
respondent, when the opinion issued. Pet. App. 22a23a.
The Fifth Circuit denied the petition for
rehearing in a one-sentence order without
explanation. Pet. App. 21a. Through counsel, Mr. Rice
then moved, unopposed, for vacatur of the opinion and
dismissal of the appeal as moot. Pet. App. 5a-20a. The
court of appeals denied that motion in a brief order,
without any explanation except a pincite to a federal
courts treatise. Pet. App. 4a. Mr. Rice moved,
unopposed, to recall the mandate, but the court of
5

appeals denied that motion without explanation as
well. Pet. App. 3a. He then sought en banc rehearing
of that motion, which the court also denied, again
without offering any rationale. Pet. App. 1a.
REASONS FOR GRANTING THE PETITION
This case was moot when the court of appeals
decided it, and thus the court of appeals was without
Article III jurisdiction to rule. Mr. Rice filed suit to
challenge his pretrial detention by the Harris County
Sheriff in the Harris County Jail, but by the time the
court of appeals ruled, Mr. Rice was no longer in
pretrial detention, no longer in the Harris County Jail,
and no longer in the custody of the sole respondent, the
Harris County Sheriff. There was therefore no case or
controversy to be decided, and the court of appeals
lacked jurisdiction over the appeal.
The court of appeals was initially unaware that it
lacked jurisdiction. But even after it learned that Mr.
Rice had not been in pretrial detention at the Harris
County Jail at the time of its decision, it declined to
vacate its published opinion and dismiss the appeal on
four occasions—even though Respondent did not
oppose Mr. Rice’s request. Because the case was moot
when it was decided, and remains moot, Mr. Rice
cannot seek review on the merits of the adverse ruling
of the district court or court of appeals. Where a
dispute has become moot while pending on appeal
through no fault of the party who would seek review,
the proper disposition is to vacate the opinion that can
no longer be appealed. That is all the more necessary
here, where the court below did not even have Article
III jurisdiction to issue the opinion. Mr. Rice therefore

6

requests that this Court grant certiorari, vacate the
court of appeals’ opinion, and remand. 1
Here, vacatur is justified for two independent
reasons. First, the decision below is an advisory
opinion, issued without Article III jurisdiction. Courts
are necessarily limited by Article III, and the court
below contravened those limits. Second, the fact that
Mr. Rice cannot now seek review on the merits of the
district court’s or court of appeals’ decisions, due to the
case’s mootness, independently warrants vacatur of
both decisions. This rationale would apply even if the
court of appeals had had jurisdiction to issue the
underlying decision in the first place, and the case had
become moot only thereafter.
Summary vacatur and remand are particularly
warranted in this case as an exercise of this Court’s
supervisory power. The court of appeals repeatedly
refused to vacate the advisory opinion, creating a
circuit split in this indisputably moot case. This
Court’s intervention is needed to ensure compliance
with the Article III limitations on the power of the
federal judiciary.

1 A finding of cert-worthiness is not a prerequisite to vacatur in
these circumstances. See, e.g., Azar v. Garza, 138 S. Ct. 1790
(2018) (per curiam) (vacating judgment on an issue of first
impression in the court of appeals without discussing whether
certiorari would have been warranted); Stephen M. Shapiro et al.,
Supreme Court Practice § 5.13, at 357–58 (10th ed. 2013). Mr.
Rice notes, however, that the court below recognized that its
decision created a circuit split as to whether claims seeking
immediate release from incarceration or detention due to the
danger of contracting COVID-19 are cognizable in habeas.

7

I. The Court of Appeals’ Decision Exceeded Its
Authority Under Article III Because the Case
Was Moot When the Court Ruled.
The case was moot when the court of appeals issued
its opinion and entered judgment on February 2, 2021.
At the time, the court erroneously believed that Mr.
Rice was in pretrial detention at the Harris County
Jail. Pet. App. 34a (describing Mr. Rice as “a detainee
in the Harris County, Texas, jail awaiting trial”). But
seven weeks earlier, in December 2020, Mr. Rice had
been sentenced and transferred to TDCJ custody to
serve his sentence. As a result, his pretrial detention
at the Harris County Jail was over. Mr. Rice’s habeas
petition sought release only from the Harris County
Jail on his own recognizance “for the pendency of his
criminal proceedings,” in light of the specific danger
posed by COVID-19 at the Harris County Jail. Pet.
App. 45a. Because Mr. Rice was sentenced and the
state took him into custody, he was no longer in the
custody of the Respondent, the Harris County Sheriff,
and there was no case or controversy left for the Fifth
Circuit to adjudicate.
Since Mr. Rice’s pretrial
detention at the Harris County Jail had ended, the
court of appeals’ jurisdiction over his habeas claim—
over a controversy regarding “the restraint of which
[the] petitioner complain[ed]”—had also ended. See Ex
parte Baez, 177 U.S. 378, 390 (1900) (emphasis added).
It is universally recognized, including in the Fifth
Circuit, that once a petitioner who has sought habeas
relief in the form of release from pretrial detention has
left pretrial custody, the litigation is moot. See, e.g.,
Powers v. Schwartz, 587 F.2d 783, 783-84 (5th Cir.
1979) (per curiam) (challenge to pretrial detention
based on alleged unconstitutionality of the state’s bail
scheme was mooted by the petitioner’s conviction and
transfer out of pretrial detention); Fassler v. United
8

States, 858 F.2d 1016, 1018 (5th Cir. 1988) (per
curiam) (“Because Fassler is now legally in federal
custody, we must hold that his request for release from
pretrial confinement is moot.”); Jackson v. Clements,
796 F.3d 841, 843 (7th Cir. 2015) (per curiam) (“Once
Mr. Jackson was convicted, the claims concerning his
pre-trial confinement became moot.”); Thorne v.
Warden, Brooklyn House of Det. for Men, 479 F.2d 297,
299 (2d Cir. 1973) (“Since Thorne is now held as a
convicted defendant rather than merely on a criminal
charge not yet brought to trial, the issue as to the
legality of his continued pretrial detention has been
mooted.”); Medina v. People of the State of Cal., 429
F.2d 1392, 1392-93 (9th Cir. 1970) (per curiam)
(challenge to bail revocation mooted by conviction).
Mr. Rice’s conviction and transfer out of pretrial
detention at the Harris County Jail therefore mooted
his challenge to that pretrial detention.
Indeed, even if the state had not assumed custody of
Mr. Rice from the Harris County Sheriff, Mr. Rice’s
mere transfer to a different facility would have mooted
his claim, which was limited to his detention at the
Harris County Jail. E.g., Thompson v. Choinski, 525
F.3d 205, 209 (2d Cir. 2008) (transfer from state prison
to federal penitentiary mooted claim brought in
habeas predicated on denial of kosher food and access
to law library at state prison). Transfer to another
place of detention or release from detention moots a
claim arising from the initial detention location. See,
e.g., id.; Thompson v. Smith, 719 F.2d 938, 940-41 (8th
Cir. 1983) (per curiam) (transfer between prisons
mooted habeas claim predicated on harassment,
intimidation, and threats at original prison); Corgain
v. Miller, 708 F.2d 1241, 1246 (7th Cir. 1983)
(transfers to different prisons mooted claim predicated
on inadequate library access at original place of
9

confinement); Hernandez v. Garrison, 916 F.2d 291,
293 (5th Cir. 1990) (per curiam) (habeas claims
predicated on overcrowding, denial of medical
treatment, and inadequate law library mooted by
transfer). The rule is simple: “when a prisoner is
moved from a prison, his action will usually become
moot as to” the original place of confinement. Nelson
v. Heiss, 271 F.3d 891, 897 (9th Cir. 2001). 2
There was no remaining controversy between Mr.
Rice and the Harris County Sheriff on February 2,
2021, when the court of appeals ruled. Article III
requires that “[t]he parties must continue to have a
personal stake in the outcome of the lawsuit” at all
stages of the proceedings, including on appeal. See
Spencer v. Kemna, 523 U.S. 1, 7 (1998) (quoting Lewis
v. Cont’l Bank Corp., 494 U.S. 472, 477-78 (1990))
(internal quotation marks omitted). The Fifth Circuit
therefore lacked jurisdiction to consider Mr. Rice’s
claim on February 2, when it published its opinion and
entered judgment. On that basis alone, grant, vacatur,
and remand is warranted. 3
Transfer between facilities also moots a claim for injunctive
relief hinging on the location in which an individual is held. E.g.,
Nelson, 271 F.3d at 897; Rendelman v. Rouse, 569 F.3d 182, 186
(4th Cir. 2009) (explaining that “as a general rule, a prisoner’s
transfer or release from a particular prison moots his claims for
injunctive and declaratory relief with respect to his incarceration
there”); Edwards v. Johnson, 209 F.3d 772, 776 (5th Cir. 2000)
(claims for injunctive relief moot on transfer); Cooper v. Sheriff,
Lubbock Cty., Tex., 929 F.2d 1078, 1084 (5th Cir. 1991) (per
curiam) (same).
3 The fact that Mr. Rice sought, as an ancillary aspect of his
appeal, to vacate the “strike” the district court assessed against
him under the PLRA in the course of dismissing his petition did
not save the appeal from mootness, any more than an ancillary
issue of attorneys’ fees would. “It is well established that a
federal court may consider collateral issues after an action is no
2

10

II. Because the Case Was Moot When Decided,
Dismissal and Vacatur Are Required.
Because there was no live dispute between the
parties to resolve when it issued its opinion, the court
of appeals exceeded its authority under Article III. It
did so unknowingly, but once it was informed of the
fact, it refused to correct the error. Vacatur of the
underlying advisory opinion is compelled by Article
III.
Article III “require[s] that a case embody a genuine,
live dispute between adverse parties” and
consequently “prevent[s] the federal courts from
issuing advisory opinions.” Carney v. Adams, 141 S.
Ct. 493, 498 (2020). “A federal court is without power
to decide moot questions or to give advisory opinions
which cannot affect the rights of the litigants in the
case before it.” St. Pierre v. United States, 319 U.S. 41,
42 (1943) (per curiam). “It has long been settled that
a federal court has no authority ‘to give opinions upon
moot questions or . . . to declare principles or rules of
law which cannot affect the matter in issue in the case
before it.’” Church of Scientology of Cal. v. United
States, 506 U.S. 9, 12 (1992) (quoting Mills v. Green,
159 U.S. 651, 653 (1895)). “[T]he oldest and most
consistent thread in the federal law of justiciability is
longer pending,” including where the case has become moot or
been dismissed due to lack of jurisdiction. Cooter & Gell v.
Hartmarx Corp., 496 U.S. 384, 395-96 (1990) (citing, as examples,
attorneys’ fees, costs, and contempt sanctions and holding that
Rule 11 sanctions are also collateral). The “strike” stood or fell
with the merits of the appeal, just as would an attorneys’ fees
award. See Muwakkil v. Robinson, 143 F. App’x 512 (4th Cir.
2005) (unpublished) (holding that where a prisoner’s appeal
became moot due to transfer following the district court’s entry of
an order of dismissal, the appeal should be dismissed as moot and
the filing should not be treated as a strike).

11

that the federal courts will not give advisory opinions.”
Flast v. Cohen, 392 U.S. 83, 96 (1968); see also
California v. Texas, 593 U.S. __ , __, No. 19-840, slip
op. at 9, 2021 WL 2459255 (U.S. June 17, 2021) (a
federal court lacks jurisdiction “to issue . . . an advisory
opinion without the possibility of any judicial relief”
(internal quotation marks omitted)).
Absent “an injury that the defendant caused and the
court can remedy, there is no case or controversy for
the federal court to resolve.” TransUnion LLC v.
Ramirez, 594 U.S. __, __, No. 20-297, 2021 WL
2599472, at *6 (U.S. June 25, 2021) (quoting Casillas
v. Madison Avenue Assocs., Inc., 926 F.3d 329, 333 (7th
Cir. 2019) (Barrett, J.)). And a federal court has an
independent duty to ensure that it has jurisdiction
over each case at the time it enters a decision, to
“confine[] itself to its constitutionally limited role of
adjudicating actual and concrete disputes, the
resolutions of which have direct consequences on the
parties involved.” United States v. Sanchez-Gomez,
138 S. Ct. 1532, 1537 (2018).
“[W]hen an appeal is moot before issuance of the
appellate court’s opinion, it is appropriate to vacate
that opinion.” Versata Software, Inc. v. Callidus
Software, Inc., 780 F.3d 1134, 1135 (Fed. Cir. 2015)
(collecting cases from the Second, Fifth, Seventh, and
Ninth Circuits). Indeed, the Fifth Circuit itself has
followed this procedure in other cases. For example,
in Shokeh v. Thompson, 375 F.3d 351 (5th Cir. 2004)
(per curiam), the Fifth Circuit vacated a published
opinion upon learning of facts that rendered the
appeal moot at the time of decision. In that case, the
pro se petitioner challenged the requirement that his
release from detention be conditioned on posting a
bond. Id. at 351. Following publication of an opinion
on the merits and prior to issuance of the mandate, the
12

Fifth Circuit learned that the pro se appellant had
been released from detention almost two months
before the opinion issued. Id. When it learned that
the case was moot on issuance of its initial opinion, the
court vacated the published opinion and the district
court’s judgment and dismissed the action under
United States v. Munsingwear, Inc., 340 U.S. 36, 39
(1950). Shokeh, 375 F.3d at 351-52. The same course
of action was, and is, required here. See also Walker v.
Warden, 593 F.2d 21 (5th Cir. 1979) (per curiam)
(vacating opinion and dismissing appeal as moot upon
court of appeals’ discovery that the petitionerappellant had died prior to the opinion’s issuance);
United States v. Miller, 685 F.2d 123, 124 (5th Cir.
1982) (per curiam) (vacating published opinion and
district court’s judgment when court of appeals
learned after issuance of the opinion that the appeal
was moot).
This Court and the courts of appeals have even
recalled mandates to vacate opinions issued when the
issuing court lacked jurisdiction. This Court has done
so where “jurisdiction was not . . . presented to the
court by the counsel” and “[t]he question was
overlooked by all the members of the court.” Snow v.
United States, 118 U.S. 346, 354 (1886) (discussing
Cannon v. United States, 116 U.S. 55 (1885)). In Snow,
the Court recalled the mandate, vacated the judgment,
and dismissed a prior case from that term, Cannon,
“for want of jurisdiction, in order that the reported
decision may not appear to be a precedent for the
exercise of jurisdiction . . . in a case of this kind.”
Snow, 118 U.S. at 355. The Second, Fifth, Ninth, and
Eleventh Circuits have all likewise recalled mandates
to vacate opinions that were moot at the time of
decision. IAL Aircraft Holding, Inc. v. F.A.A., 216 F.3d
1304, 1306 (11th Cir. 2000) (collecting cases from the
13

Second and Ninth Circuits and recalling the mandate
to vacate an opinion moot on issuance); Ferrell v.
Estelle, 573 F.2d 867, 868 (5th Cir. 1978) (per curiam)
(recalling mandate to vacate opinion issued in habeas
case where petitioner had died by the time of decision).
Accordingly, because the court below acted without
Article III jurisdiction, its decision must be vacated as
moot.
III. The Underlying Decisions Also Require
Vacatur Because Mr. Rice’s Case Became
Moot While His Appeal Was Underway.
Vacatur of the underlying district court and court of
appeals decisions is also appropriate now because the
case became moot while Mr. Rice’s appeal was
underway.
Vacatur is appropriate when a case becomes moot
while on appeal. Thus, when a case becomes moot
“while on its way” to this Court, this Court’s
“established practice” is to “vacate the judgment below
and remand with a direction to dismiss.”
Munsingwear, 340 U.S. at 39 & n.2 (1950); see also,
e.g., Mayorkas v. Innovation Law Lab, 594 U.S. __, __,
No. 19-1212, 2021 WL 2520313 (U.S. June 21, 2021);
Azar v. Garza, 138 S. Ct. 1790, 1792 (2018) (per
curiam); Trump v. Hawaii, 138 S. Ct. 377 (2017)
(mem.); Trump v. Int’l Refugee Assistance, 138 S. Ct.
353 (2017) (mem.); Karcher v. May, 484 U.S. 72, 82
(1987); Burke v. Barnes, 479 U.S. 361, 365 (1987);
Duke Power Co. v. Greenwood Cty., 299 U.S. 259, 267
(1936) (per curiam). This Court has followed that
approach in “countless cases,” Great W. Sugar Co. v.
Nelson, 442 U.S. 92, 93 (1979) (per curiam), and it is
the “normal” procedure regarding mootness unless the

14

losing party itself chooses to moot the case, Camreta v.
Greene, 563 U.S. 692, 713 (2011).
The rule providing for vacatur serves important
purposes: “A party who seeks review of the merits of
an adverse ruling, but is frustrated by the vagaries of
circumstance” . . . “ought not in fairness be forced to
acquiesce in the judgment.” U.S. Bancorp Mortg. Co.
v. Bonner Mall P’ship, 513 U.S. 18, 25 (1994). Vacatur
under Munsingwear is appropriate when, as here, the
party seeking vacatur is not responsible for causing
the case to become moot and vacating the lower court
decision serves the doctrine’s equitable purposes. See,
e.g., U.S. Bancorp Mortg Co., 513 U.S. at 24–25.
Thus, even where a court has jurisdiction when it
issues an opinion, as the district court did here,
vacatur is the appropriate remedy when the case
becomes moot while on appeal through no fault of the
appealing party. Munsingwear directs that when an
appeal becomes moot, the “established practice” is to
“vacate the judgment below and remand with a
direction to dismiss.” 340 U.S. at 39. Such “[v]acatur
is in order when mootness occurs through
happenstance—circumstances not attributable to the
parties.” Arizonans for Off. Eng. v. Arizona, 520 U.S.
43, 71 (1997). “A party who . . . is frustrated by the
vagaries of circumstance[] ought not in fairness be
forced to acquiesce” to an adverse decision. U.S.
Bancorp Mortg. Co., 513 U.S. at 25. Because Mr. Rice’s
dispute with the Respondent has become moot as a
result of the state’s interposition of his criminal
sentencing and transfer out of pretrial detention, he
was and is no longer able to pursue an appeal on the
merits, and thus vacatur of the underlying opinions
and dismissal of the appeal is the appropriate
disposition—and would be even if the court of appeals
had had jurisdiction when it issued its opinion.
15

IV. Summary Vacatur and Remand is an
Appropriate Exercise of This Court’s
Supervisory Power.
Summary vacatur and remand is particularly
appropriate here as an exercise of this Court’s “broad”
“supervisory power over the judgments of the lower
federal courts.” Munsingwear, 340 U.S. at 40. This
Court “ha[s] ample authority to control the
administration of justice in the federal courts”
pursuant to its supervisory authority. Danforth v.
Minnesota, 552 U.S. 264, 289 (2008). Its “supervisory
power over federal courts” allows it to act “to protect
the integrity of the federal system.” See Frazier v.
Heebe, 482 U.S. 641, 647 n.7 (1987). This Court
regularly deploys that power to ensure moot opinions
do not lead to legal consequences. Munsingwear, 340
U.S. at 40-41; supra Section II.
Here, the use of the supervisory power is even more
appropriate than in a typical Munsingwear vacatur
case. The court of appeals exceeded its authority
under Article III in issuing its opinion, which created
a circuit split on a novel and important question, and
it then refused multiple unopposed requests to correct
its own error. Only this Court can set matters right.
The Fifth Circuit acknowledged that its decision in
this moot case created a circuit split with the Sixth
Circuit. Rice, 985 F.3d at 1070 n.2. 4 It also has the
potential to intersect with a broader circuit split:
whether habeas is an appropriate vehicle for
conditions of confinement claims as opposed to claims
4 The holding was also contrary to that of a prior Fifth Circuit
panel in an unpublished decision. See Cheek v. Warden of Fed.
Med. Ctr., 835 F. App’x 737, 739 (5th Cir. 2020) (unpublished)
(per curiam).

16

regarding the fact or duration of confinement. This
Court has left that question open for more than four
decades. Bell v. Wolfish, 441 U.S. 520, 526 n.6 (1979);
see, e.g., Aamer v. Obama, 742 F.3d 1023, 1031-32,
1036-38 (D.C. Cir. 2014) (acknowledging lack of
resolution
in
Supreme
Court
precedent,
acknowledging circuit split, and holding that habeas
was an appropriate vehicle to challenge conditions of
confinement); Spencer v. Haynes, 774 F.3d 467, 470-71
(8th Cir. 2014) (acknowledging circuit split and
applying circuit precedent in holding that habeas was
not available as a vehicle to challenge conditions of
confinement claims).
Moreover, the court of appeals below not only issued
a published opinion in a moot case on this important
issue, but it did so in a pro se case, in which the
appellee never even filed a brief. Mr. Rice noted in his
brief, “Appellant admits not being well lettered in the
law or the terms.” Pet. App. 38a-39a. In fact, the
entirety of Mr. Rice’s briefing on the habeas question
consisted of three sentences and a citation to an outof-circuit district court case. Id. The Fifth Circuit
therefore decided a significant and contested question
without
meaningful
briefing
or
adversarial
proceedings, and then repeatedly refused multiple
unopposed requests to vacate its decision when it
learned that it did not have jurisdiction at the time it
issued its original opinion.
The failure of the court below even to engage with
the question of its own jurisdiction further supports
vacatur. Mr. Rice brought mootness to the Fifth
Circuit’s attention four times. The Fifth Circuit
provided no meaningful explanation of its denial of
vacatur and dismissal—only a citation to a section in
Wright & Miller’s Federal Practice and Procedure
17

treatise titled “Mootness: Doctrinal Foundations.”
Pet. App. 4a.
This case was indisputably moot at the time the
court of appeals rendered its decision. Even after it
learned of this fact, the Fifth Circuit kept in place its
advisory opinion creating a circuit split on a complex
and novel underlying question.
This published
advisory opinion has profound repercussions for
litigants in the Fifth Circuit. Vacatur and remand for
dismissal are necessary to ensure continued
compliance by the courts of appeals with Article III’s
constitutional limitations on their authority.

18

CONCLUSION
The petition for writ of certiorari should be granted,
the published opinion should be vacated, and the
matter should be remanded to the court of appeals
with instructions to vacate its judgment and remand
to the district court for vacatur of its April 28, 2020,
order of dismissal and final judgment, and for
dismissal of the case without prejudice.
Respectfully submitted,
David D. Cole
AMERICAN CIVIL
LIBERTIES UNION
FOUNDATION
915 15th Street, NW
Washington, D.C. 20005
Cecillia D. Wang
Jennesa Calvo-Friedman
AMERICAN CIVIL
LIBERTIES UNION
FOUNDATION
125 Broad Street
New York, NY 10004

Kathryn Huddleston
Andre Segura
Counsel of Record
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION OF
TEXAS
5225 Katy Freeway,
Suite 350
Houston, TX 77007
(713) 942-8146
asegura@aclutx.org
Aaron Gold
ORRICK, HERRINGTON &
SUTCLIFFE LLP
51 West 52nd Street
New York, NY 10019

Date: July 2, 2021

19

APPENDIX

APPENDIX A
UNITED STATES
COURT OF APPEALS FOR THE FIFTH
CIRCUIT
NEW ORLEANS, LOUISIANA
SKYLER THOMAS RICE, Plaintiff—Appellant, versus
ED GONZALEZ, SHERIFF OF HARRIS COUNTY,
Defendant—Appellee.
Docket No. 20-20263
[Filed May 7, 2021]
ON PETITION FOR REHEARING EN BANC
Before JONES, SMITH, and ELROD, Circuit Judges.
PER CURIAM:
(XX) Treating the Petition for Rehearing En Banc as
a Petition for Panel Rehearing, the Petition for Panel
Rehearing is DENIED. No member of the panel nor
judge in regular active service of the court having
requested that the court be polled on Rehearing En
Banc (FED. R. APP. P. and 5TH CIR. R. 35), the Petition
for Rehearing En Banc is DENIED.
( ) Treating the Petition for Rehearing En Banc as a
Petition for Panel Rehearing, the Petition for Panel
Rehearing is DENIED. The court having been polled
at the request of one of the members of the court and
a majority of the judges who are in regular active
service and not disqualified not having voted in favor
(FED. R. APP. P. and 5TH CIR. R. 35), the Petition for
Rehearing En Banc is DENIED.
1a

/s/ Edith H. Jones
EDITH H. JONES
United States Circuit Judge

2a

APPENDIX B
UNITED STATES
COURT OF APPEALS FOR THE FIFTH
CIRCUIT
NEW ORLEANS, LOUISIANA
SKYLER THOMAS RICE, Plaintiff—Appellant, versus
ED GONZALEZ, SHERIFF OF HARRIS COUNTY,
Defendant—Appellee.
Docket No. 20-20263
[Filed April 16, 2021]
Before JONES, SMITH, and ELROD, Circuit Judges.
PER CURIAM:
IT IS ORDERED that Appellant’s unopposed
motion to recall this court’s mandate is DENIED.

3a

APPENDIX C
UNITED STATES
COURT OF APPEALS FOR THE FIFTH
CIRCUIT
NEW ORLEANS, LOUISIANA
SKYLER THOMAS RICE, Plaintiff—Appellant, versus
ED GONZALEZ, SHERIFF OF HARRIS COUNTY,
Defendant—Appellee.
Docket No. 20-20263
[Filed March 22, 2021]
Before JONES, SMITH, and ELROD, Circuit Judges.
PER CURIAM:
IT IS ORDERED that Appellant’s unopposed
motion on rehearing to vacate the Court’s published
opinion is DENIED. See 13B Charles Alan Wright &
Arthur R. Miller, Federal Practice and Procedure
§ 3533.1, at 758 (3d ed. 2008).
IT IS FURTHER ORDERED that Appellant’s
unopposed motion on rehearing to dismiss the appeal
as moot is DENIED. See id.

4a

APPENDIX D
UNITED STATES
COURT OF APPEALS FOR THE FIFTH
CIRCUIT
NEW ORLEANS, LOUISIANA
SKYLER THOMAS RICE, Plaintiff—Appellant, versus
ED GONZALEZ, SHERIFF OF HARRIS COUNTY,
Defendant—Appellee.
Docket No. 20-20263
[Filed March 17, 2021]
UNOPPOSED MOTION TO VACATE THE PANEL
OPINION AND DISMISS THE APPEAL AS MOOT
INTRODUCTION
Appellant Skyler Thomas Rice was no longer a
pretrial detainee in custody at the Harris County Jail,
or otherwise in Harris County custody, at the time
this Court entered judgment and issued its opinion.
Indeed, seven weeks before, Mr. Rice had been
transferred to Texas Department of Criminal Justice
(“TDCJ”) custody in Beaumont, Texas, to serve his
sentence. This appeal of Mr. Rice’s habeas petition
seeking pretrial release from the Harris County Jail
on his own recognizance during the pendency of Mr.
Rice’s criminal proceedings was therefore moot. Mr.
Rice accordingly seeks vacatur of the panel opinion
and dismissal of the appeal. Counsel has consulted
with counsel for the Harris County Sheriff; the Sheriff
5a

is not opposed to this motion.
Article III of the Constitution requires, for
jurisdiction, a live case or controversy: it does not
permit the issuance of an advisory opinion. Because
this appeal is moot and was moot when the panel
issued its decision, the published opinion must be
vacated, and the appeal must be dismissed.
Controlling Supreme Court and Fifth Circuit
precedent, and the constitutional limitation of the
federal judiciary’s authority to the decision of actual
cases or controversies, compel this result. The Court’s
duty to inquire into the basis of its jurisdiction
persists throughout the litigation—including where
“facts which render the case moot” come to the Court’s
attention after the opinion issues and prior to issuance
of the mandate. United States v. Miller, 685 F.2d 123
(5th Cir. 1982) (per curiam). In such circumstances—
including where the Court learns that a habeas
petitioner was no longer in pretrial custody when the
opinion issued, Shokeh v. Thompson, 375 F.3d 351 (5th
Cir. 2004) (per curiam)—vacatur of the advisory
opinion is constitutionally required. Vacatur of the
published opinion and the judgment below is also
appropriate under United States v. Munsingwear,
Inc., 340 U.S. 36 (1950). Because the litigation has
become moot due to the passage of time rather than
the actions of the parties, the district court’s opinion
can never be reviewed by this Court.
Further, on appeal, Mr. Rice sought to ensure that
the dismissal of his case by the district court would not
result in a strike against him under the Prison
Litigation Reform Act. This Court may and should, for
clarity, dispose of this matter ancillary to the
substantive litigation in its order of dismissal. But Mr.
Rice’s concern regarding the strike does not save this
6a

habeas litigation seeking only release from Harris
County pretrial detention—relief a court can no longer
provide—from mootness.
This appeal was moot when the Court entered
judgment and issued its opinion. Mr. Rice could, at
that time, no longer have been released from Harris
County pretrial custody—and so there was no
effective relief that a court could provide in this
litigation. That information is now before this Court.
Article III requires that the Court vacate its opinion
and dismiss this case.
BACKGROUND
When this Court entered judgment and issued its
opinion on February 2, 2021, it believed Appellant
Skyler Thomas Rice to be “a detainee in the Harris
County, Texas, jail awaiting trial.” Doc. 515730526 at
1. But this was not so. Mr. Rice had at that time
already been sentenced and, seven weeks before this
Court’s decision, transferred to TDCJ custody. In fact,
Mr. Rice’s mailing address on this Court’s docket is
the Gist State Jail in Beaumont, Texas.
On April 15, 2020, Mr. Rice filed this lawsuit
challenging his pretrial confinement in the Harris
County Jail and seeking “release…on his own
recognizance for the pendency of his criminal
proceedings.” Record on Appeal (“ROA”) 4. Mr. Rice
sought, as relief, either a writ of habeas corpus or an
injunction ordering his immediate release. Id.
Mr. Rice’s underlying claim was that his continued
confinement in pretrial detention at the Harris
County Jail violated the Fifth Amendment’s Due
7a

Process Clause. Id. at 4-8. He alleged that he was at
increased risk of a serious adverse outcome were he to
contract COVID-19 due to his underlying health
conditions, including asthma and hypertension. Id. at
4, 6. He further alleged that his pretrial detention at
the Harris County Jail “exposed [him] to a substantial
risk of serious harm.” Id. at 7. In support of this
contention, he highlighted specific risks he faced
during his detention at the Harris County Jail. Id. at
6-7; see also id. at 11 (Mr. Rice’s declaration). Finally,
Mr. Rice alleged that his ongoing detention by Harris
County demonstrated that the Harris County Sheriff
disregarded the risk that COVID-19 posed to Mr. Rice.
Id. at 7-8.
On April 28, 2020, the district court dismissed with
prejudice Mr. Rice’s complaint, which it construed as
a civil rights complaint pursuant to 42 U.S.C. § 1983
and not a petition for a writ of habeas corpus. Id. at
18, 20, 23. This appeal followed in May 2020. Id. at 24.
This Court docketed Mr. Rice’s opening brief in this
appeal on October 1. The Sheriff of Harris County did
not file a brief in response.
Mr. Rice was thereafter sentenced to state prison.
He was transferred from Harris County Jail to TDCJ
custody on December 15, 2020. Mr. Rice remains in
TDCJ custody at the Gist State Jail in Beaumont,
Texas. Mr. Rice’s address at the Gist State Jail is
listed on this Court’s docket.
On February 2, 2021, this Court issued a published
opinion in this litigation, affirming the district court’s
denial of relief. Doc. 515730526 at 2. This Court
construed Mr. Rice’s claim as sounding in habeas and
concluded that the Court “thus ha[d] jurisdiction over
8a

the case.” Id. This Court understood Mr. Rice to be, at
the time the decision issued, “a detainee in the Harris
County, Texas, jail awaiting trial.” Id. at 1. At that
time, however, Mr. Rice was incarcerated in TDCJ
custody at the Gist State Jail.
ARGUMENT
I.

This Appeal Was Moot When This Court
Entered Judgment on February 2, 2021.
A. The Appeal Was Moot Because Mr. Rice
Was No Longer in Pretrial Detention at
the Harris County Jail on February 2.

This appeal was moot at the time of the panel’s
original decision, due to Mr. Rice’s transfer to TDCJ
custody. As described above, the panel appears to have
believed that Mr. Rice remained in pretrial detention
at the Harris County Jail on February 2, 2021, the
date that this Court issued its opinion and entered
judgment. In fact, Mr. Rice had already been
sentenced and transferred to TDCJ custody pursuant
to that sentence, in December 2020. Mr. Rice, in his
habeas petition, sought immediate release from the
Harris County Jail on his own recognizance “for the
pend[e]ncy of his criminal proceedings” in light of the
danger posed by COVID-19. ROA 4. Because Mr. Rice
could no longer be released from the Harris County
Jail when the panel entered judgment and issued its
opinion, there was no case or controversy for this
Court to adjudicate.
Fifth Circuit precedent is clear: once a petitioner
who has sought habeas relief in the form of release
from pretrial detention has left pretrial custody, the
9a

litigation is moot. For example, in Powers v. Schwartz,
587 F.2d 783 (5th Cir. 1979) (per curiam), this Court
held that because the petitioner was “no longer a
pretrial detainee,” her challenge to her pretrial
detention
predicated
on
the
alleged
unconstitutionality of the state’s pretrial bail scheme
for certain detainees was moot. Id. at 783-84. Other
Fifth Circuit decisions confirm that once pretrial
detention ends, habeas claims stemming from that
detention are moot. Fassier v. United States, 848 F.2d
1016, 1018 (5th Cir. 1988) (habeas request for pretrial
release moot following conviction); Yohey v. Collins,
985 F.2d 222, 228-29 (5th Cir. 1993) (pretrial habeas
claims mooted by conviction, citing case in which
habeas appeal regarding bail revocation was mooted
by conviction). 1 This is the rule in other circuits as
well. E.g., Jackson v. Clements, 796 F.3d 841, 843 (7th
Cir. 2015) (“Once Mr. Jackson was convicted, the
claims concerning his pre-trial confinement became
moot.”); Thorne v. Warden, Brooklyn House of
Detention for Men, 479 F.2d 297, 299 (2d Cir. 1973)
(“Since Thorne is now held as a convicted defendant
rather than merely on a criminal charge not yet
Numerous unpublished Fifth Circuit decisions likewise
confirm that pretrial habeas claims, including those seeking
release from pretrial detention, become moot following
conviction. United States v. Route, 65 F. App’x 508 (5th Cir. 2003)
(unpublished op.) (appeal of pretrial detention order mooted by
conviction); United States v. Heard, 192 F.3d 125 (unpublished
op.) (same); Henderson v. Criminal Dist. Ct. No. 3, 210 F.3d 366
(5th Cir. 2000) (unpublished op.) (habeas request for pretrial
“immediate release” moot following conviction); Martinez v.
Atkinson, 678 F. App’x 218, 219 (5th Cir. 2017) (unpublished op.)
(habeas request for pretrial release mooted by conviction); United
States v. Frazier, 220 F. App’x 294, 295 (5th Cir. 2007)
(unpublished op.) (same).
1

10a

brought to trial, the issue as to the legality of his
continued pretrial detention has been mooted.”). Mr.
Rice’s conviction and transfer out of pretrial detention
at the Harris County Jail, to incarceration by TDCJ to
serve his sentence, mooted his case.
The Fifth Circuit has likewise held that transfer to
another place of detention—even where such transfer
is not between pretrial detention and post-conviction
incarceration, and between detention systems—moots
claims that arise based on the initial location of
detention, including those brought in habeas.
Hernandez v. Garrison, 916 F.2d 291 (5th Cir. 1990),
for instance, held that claims brought in habeas
regarding overcrowding, denial of medical treatment,
and law library access at a particular federal prison
became moot on transfer to a different prison. Id. at
293. This logic applies a fortiori to Mr. Rice’s transfer
from pretrial detention at the Harris County Jail, in
the custody of the Harris County Sheriff, to
incarceration at a state prison, in the custody of TDCJ.
Cf. Rumsfeld v. Padilla, 542 U.S. 426, 434-35 (2004)
(holding that the immediate custodian is the
appropriate respondent in habeas litigation).
In sum, because Mr. Rice’s pretrial detention at the
Harris County Jail had ended, the Court’s jurisdiction
over his habeas claim—over a controversy regarding
“the restraint of which [the] petitioner complains”—
had ended as well when the opinion issued. Ex parte
Baez, 177 U.S. 378, 390 (1900) (emphasis added).
There is no remaining controversy between Mr. Rice
and the Harris County Sheriff, and there was no such
controversy on February 2. After his sentencing and
his transfer to TDCJ custody in December 2020, Mr.
Rice could no longer be released from the Harris
11a

County Jail; he could no longer be released for the
pendency of his (now-decided) criminal proceedings;
and he was (and is) no longer in the custody of the
Harris County Sheriff. Whether a medically
vulnerable pretrial detainee requires release in light
of any heightened risk posed by COVID-19 at the
Harris County Jail is now no more material to Mr.
Rice than to the general public. See id. (explaining
that because the habeas petitioner was “no longer a
pretrial detainee,” she lacked “a personal stake in the
outcome of the controversy as to assure…concrete
adverseness’” (quoting Baker v. Carr, 369 U.S. 186,
204 (1962))). And this has been true since December
15, 2020. Had Mr. Rice on February 2 filed a habeas
petition seeking immediate release pretrial on his own
recognizance from the Harris County Jail, the petition
would have been dismissed—due to the lack of a
genuine adversarial controversy or available relief.
This Court therefore lacks jurisdiction to consider
Mr. Rice’s claim and lacked such jurisdiction on
February 2, when it entered judgment. Powers, 587
F.2d at 784. The appeal is moot. 2

2 This Court construed Mr. Rice’s claim as sounding in habeas.
Were the Court to construe it as a claim for injunctive relief
under 42 U.S.C. § 1983, the case would still be moot. Transfer
between facilities moots a claim for injunctive relief hinging on
the location in which an individual is held. E.g., Herman v.
Holiday, 238 F.3d 660, 665-66 (5th Cir. 2001) (claim for
injunctive relief in light of serious health risk posed by
environmental conditions was moot, and the possibility of
transfer back to the original institution was too speculative to
provide relief); Edwards v. Johnson, 209 F.3d 772, 776 (5th Cir.
2000) (claims for injunctive relief moot on transfer); Cooper v.
Sheriff, Lubbock Cty., Tex., 929 F.2d 1078, 1084 (5th Cir. 1991)
(per curiam) (same); Vincent v. Stevenson, 106 F.3d 397 (5th Cir.

12a

B. Mr. Rice’s Concern About a Third
Strike Does Not Keep This Appeal
Alive.
The only relief that Mr. Rice sought before the
district court was release from the Harris County Jail
on his own recognizance for the duration of his
criminal proceedings. ROA 4. This Court’s
“jurisdiction is…constrained to adjudicating actual,
ongoing controversies between litigants.” Herndon v.
Upton, 985 F.3d 443, 446 (5th Cir. 2021). Mr. Rice can
no longer be granted “the sole relief sought in h[is]
petition: release from confinement” at the Harris
County Jail during the pendency of his criminal
proceedings. See id.
Thus, now that Mr. Rice is no longer in Harris
County pretrial detention, there is no case or
controversy keeping this appeal alive. In his habeas
petition, Mr. Rice sought only his release and did not
seek money damages. As this Court is aware, on
appeal Mr. Rice sought to ensure that the “strike” for
purposes of the Prison Litigation Reform Act (“PLRA”)
lodged against him by a district court would be
reversed. Br. at 7; see 28 U.S.C. § 1915(g); Lomax v.
Ortiz-Marquez, 140 S. Ct. 1721, 1723 (2020)
(describing the PLRA’s “three-strikes rule”). But that
concern regarding an ancillary matter in the litigation
does not affect this appeal’s mootness in light of Mr.
1997) (unpublished op.) (claims premised on inadequate medical
care at a particular prison and seeking injunctive relief were
mooted because the plaintiff had been transferred to a different
prison).

13a

Rice’s transfer to TDCJ custody, for two reasons.
First, “the PLRA does not apply to habeas petitions
under 28 U.S.C. § 2254.” Carson v. Johnson, 112 F.3d
818, 820 (5th Cir. 1997). This includes the PLRA’s
three-strikes provision. Id. As a result, this Court’s
construal of Mr. Rice’s appeal as a habeas petition
means this case could not subsequently qualify as a
strike under the PLRA. See Doc. 515735026 at 2 (“We
construe Rice’s petition, at his behest, as seeking
habeas relief.”).
Further, even were there a strike, its ultimate
effect would occur in a hypothetical subsequent
lawsuit in which Mr. Rice would seek to proceed in
forma pauperis and be barred from doing so by the
PLRA. The speculative possibility that Mr. Rice would
be in a position to file another lawsuit, would need to
do so in forma pauperis, and would be unable to do so
in part due to the strike in this litigation is not enough
to preserve this lawsuit in any event. The Fifth Circuit
recently held that the possibility that an out-of-circuit
sentencing court might decide to modify the plaintiff’s
supervised release did not create an ongoing
controversy that saved the case from mootness.
Herndon, 985 F.3d at 448. The same is true here,
where at most a court in subsequent litigation might
decide to construe this litigation as constituting a
strike. Should that occur, Mr. Rice could litigate the
issue in that case. See, e.g., Lomax, 140 S. Ct. at 1724
(petitioner’s challenge to application of three-strikes
rule arguing that prior cases did not qualify as strikes,
on a later motion to proceed in forma pauperis). “That
‘a favorable decision in this case might serve as a
useful precedent for [the plaintiff] in a hypothetical
lawsuit cannot save this case from mootness.’”
14a

Herndon, 985 F.3d at 448 (quoting United States v.
Juvenile Male, 564 U.S. 932, 937 (2011)).
However, the Court could, and should, both
dismiss the appeal as moot and dispose of this
ancillary matter. The Court has the authority,
notwithstanding this appeal’s mootness, to correct the
error of the district court in failing to construe the
litigation as a habeas petition by “not[ing] that the
district court’s dismissal should not count as a ‘strike’
for purposes of” the PLRA. Muwakkil v. Robinson, 143
F. App’x 512 (4th Cir. 2005) (unpublished op.). The
Fourth Circuit has taken this course of action, in a
case in which a prisoner’s appeal became moot due to
transfer following the district court’s entry of an order
of dismissal—dismissing the appeal while observing
that the district court’s error meant there should be
no strike. Id. While the Court has no authority to
“consider [the] merits” of a moot case, it “may make
such disposition of the whole case as justice may
require.” U.S. Bancorp Mortg. Co. v. Bonner Mall
P’ship, 513 U.S. 18, 21 (1994) (quoting Walling v.
James V. Reuter, Co., Inc., 321 U.S. 671, 677 (1944)).
This includes “matters of judicial administration and
practice reasonably ancillary to the primary, disputedeciding function of the federal courts,” such as the
award of costs and vacatur and remand for dismissal.
Id. at 22. The Court retains authority “to enter orders
necessary and appropriate to the final disposition” of
the litigation, id., and the best course of action to
ensure clarity on this matter is—as the Fourth Circuit
did in Muwakkil—to note that the district court
dismissal is not a strike.
But disposing of this ancillary matter has no effect
on the mootness of this appeal. The underlying case or
15a

controversy—whether Mr. Rice should be released
from pretrial detention at the Harris County Jail—can
no longer be resolved in this litigation. Any
subsequent concrete concern with whether this
litigation qualifies as a strike must be saved for
accompanying subsequent concrete litigation.
II.

Because the Appeal Was Moot When
Decided, This Court Must Vacate its
Opinion as an Improvidently Issued
Advisory Opinion.

“A federal court is without power to decide moot
questions or to give advisory opinions which cannot
affect the rights of the litigants in the case before it.”
St. Pierre v. United States, 319 U.S. 41, 42 (1943). This
principle is a, if not the, core limit on this Court’s and
all federal courts’ authority: “the oldest and most
consistent thread in the federal law of justiciability is
that the federal courts will not give advisory opinions.”
Flast v. Cohen, 392 U.S. 83, 96 (1968) (quoting C.
Wright, Federal Courts 34 (1963)). See also Church of
Scientology of Calif. v. United States, 506 U.S. 9, 12
(1992).
If an appeal is moot, then any opinion is advisory,
and a court has no power to issue one. As this Court
has stated, “If a claim is moot, it ‘presents no Article
III case or controversy, and a court has no
constitutional jurisdiction to resolve the issues it
presents.’” Nat’l Rifle Ass’n of Am., Inc. v. McCraw,
719 F.3d 338, 344 (5th Cir. 2013) (quoting Goldin v.
Bartholow, 166 F.3d 710, 717 (5th Cir. 1999)). Habeas
cases are no exception to this rule. Jackson v. Vannoy,
981 F.3d 408, 416 (5th Cir. 2020) (“Mootness, of
course, is a fundamental bar to judicial review that
16a

must be accounted for at all stages of a proceeding,
and applies in habeas as in any other type of
litigation.”).
Moreover, this Court must inquire into whether an
appeal is moot, taking into account facts that have
come to the Court’s attention—and even doing so sua
sponte if necessary. The Court has an independent
duty to ensure that it has jurisdiction over each case
at the time it enters a decision, to “confine[] itself to
its constitutionally limited role of adjudicating actual
and concrete disputes, the resolutions of which have
direct consequences on the parties involved.” United
States v. Sanchez-Gomez, 138 S. Ct. 1532, 1537 (2018);
Gulf Restoration Network v. Salazar, 683 F.3d 158,
166 (5th Cir. 2012). “Before ruling on the merits of the
case, it is imperative that the court first determine
whether it has jurisdiction to hear the suit; if
jurisdiction is lacking, then the court has no authority
to consider the merits.” Cook v. Reno, 74 F.3d 97, 99
(5th Cir. 1996). As this Court explained less than two
months ago, “Generally speaking, a court cannot
assume that it has jurisdiction and proceed to resolve
a case on the merits”—and “it is well-settled, that
mootness is a threshold jurisdictional inquiry.”
Ermuraki v. Renaud, 987 F.3d 384, 386 (5th Cir.
2021).
While the Court did not know that Mr. Rice was
not a pretrial detainee in Harris County custody at the
time that it issued the opinion and entered judgment,
that information is now before the Court. The Court
should take it into account, pursuant to its duty to
independently inquire into the basis of its jurisdiction.
That duty extends even after issuance of the opinion
and entry of judgment. Where, as here, “[b]efore
17a

issuance of the mandate…the parties have brought to
the attention of the court facts which render the case
moot” and the Court has issued a published opinion,
disposition is straightforward. Miller, 685 F.2d at 124.
The Court will vacate the published opinion and either
dismiss the appeal or remand with instructions to
dismiss. Id. at 124 (doing so); Shokeh, 375 F.3d at 35152 (same).
To do otherwise would be to permit the issuance of
an advisory opinion beyond this Court’s authority. “It
has long been settled that a federal court has no
authority ‘to give opinions upon moot questions or
abstract propositions, or to declare principles or rules
of law which cannot affect the matter in issue in the
case before it.’” Church of Scientology of Calif., 506
U.S. at 12 (quoting Mills v. Green, 159 U.S. 651, 653
(1895)). The Court should vacate the published
opinion.
III.

Vacatur of This Court’s Opinion, Vacatur
of the District Court’s Judgment, and
Dismissal of the Action is Appropriate
Under Munsingwear.

Vacatur of this Court’s published opinion as an
advisory opinion is compelled by Article III of the
Constitution. This Court should also vacate its
published opinion, vacate the judgment below, and
either dismiss outright or remand for dismissal under
United States v. Munsingwear, Inc., 340 U.S. 36
(1950). Munsingwear directs that when an appeal
becomes moot, the “established practice” is to “vacate
the judgment below.” Id. at 39. As the Fifth Circuit
has explained:

18a

If a claim becomes moot after the entry
of a district court’s judgment and prior to
the completion of the appellate review,
we generally vacate the judgment and
remand for dismissal. Munsingwear, 340
U.S. at 39 (observing that, where a case
has become moot on appeal, ‘[t]he
established practice . . . is to reverse or
vacate the judgment below and remand
with a direction to dismiss’). Vacatur of
the lower court’s judgment is warranted
. . . where mootness has occurred through
happenstance, rather than through
voluntary action of the losing party. See
Arizonans for Official English v. Arizona,
520 U.S. 43, 71 (1997) (‘Vacatur is in
order when mootness occurs through
happenstance—circumstances
not
attributable to the parties.’).
Murphy v. Fort Worth Indep. Sch. Dist., 334 F. 3d 470,
470-71 (5th Cir. 2003) (vacating district court’s
judgment where mootness occurred due to party’s
graduation from high school).
Mr. Rice’s transfer from Harris County pretrial
detention to TDCJ post-conviction incarceration is
just the sort of “circumstance[] not attributable to the
parties” that makes vacatur of the panel’s decision
and the lower court’s judgment appropriate. There is
no possibility for appellate review of Mr. Rice’s habeas
petition, because under the ordinary functioning of
the criminal system Mr. Rice’s underlying criminal
case has been resolved and he is no longer in pretrial
custody. Thus, through no fault of the parties, he
cannot obtain any effective relief on the merits of his
19a

claim—because he cannot be released.
In fact, the Fifth Circuit has taken precisely this
course of action in a case identical in all relevant
respects to this one, involving a habeas appeal by a
pro se petitioner. The Fifth Circuit originally
published an opinion in a pro se petitioner’s appeal of
the denial of a habeas petition that sought his release
without having to post a $5,000 bond. Shokeh, 375
F.3d at 351. After the opinion was filed but before the
mandate issued, the Court learned that two months
before it had filed its opinion, the petitioner had been
released without bond—meaning the case had been
moot before the opinion was filed. Id. The Court
therefore vacated its opinion and, pursuant to
Munsingwear, vacated the district court’s ruling and
dismissed the case. Id. at 351-52.
The same disposition as in Shokeh should obtain
here. Not only should this Court vacate its published
opinion that it lacked jurisdiction to issue, but
pursuant to Munsingwear, the Court should also
vacate the district court’s judgment and either dismiss
outright or remand for dismissal.
CONCLUSION
This Court should vacate its published opinion and
dismiss this appeal.
Dated: March 17, 2021

20a

APPENDIX E
UNITED STATES
COURT OF APPEALS FOR THE FIFTH
CIRCUIT
NEW ORLEANS, LOUISIANA
SKYLER THOMAS RICE, Plaintiff—Appellant, versus
ED GONZALEZ, SHERIFF OF HARRIS COUNTY,
Defendant—Appellee.
Docket No. 20-20263
[Filed March 11, 2021]
ON PETITION FOR REHEARING
Before JONES, SMITH, and ELROD, Circuit Judges.
PER CURIAM:
IT IS ORDERED that the petition for rehearing is
DENIED.

21a

APPENDIX F
UNITED STATES
COURT OF APPEALS FOR THE FIFTH
CIRCUIT
NEW ORLEANS, LOUISIANA
SKYLER THOMAS RICE, Plaintiff—Appellant, versus
ED GONZALEZ, SHERIFF OF HARRIS COUNTY,
Defendant—Appellee.
Docket No. 20-20263
[Filed March 2, 2021]
PETITION FOR PANEL REHEARING
INTRODUCTION
This case concerns a pro se lawsuit against the
Sheriff of Harris County, Texas, filed by Appellant
Skyler Thomas Rice and challenging his then
detention pretrial at the Harris County Jail—before
his transfer to the custody of the Texas Department of
Criminal Justice (“TDCJ”) in December 2020. Because
Mr. Rice was transferred out of pretrial detention at
the Harris County Jail two months before this Court
entered judgment and issued its opinion, this case was
moot and this Court lacked jurisdiction to take those
steps. Mr. Rice respectfully requests rehearing by this
panel in light of the jurisdictional defect and vacatur
of the Court’s judgment and related opinion and of the
underlying district court opinion.

22a

In April 2020, Mr. Rice challenged his pretrial
detention, seeking immediate release due to the
danger posed by his continued pretrial detention at
Harris County Jail in light of the COVID-19
pandemic. He appealed an adverse decision in May
2020. In October 2020, Mr. Rice was sentenced; in
December 2020, he was transferred to TDCJ custody
to serve out that sentence. In short, by the time this
Court rendered its judgment in February 2021, Mr.
Rice was no longer at the Harris County Jail, in the
custody of the Harris County Sheriff, or otherwise in
pretrial detention. As a result, his case was already
moot.
Mr. Rice respectfully requests that, upon granting
rehearing, the panel vacate its original published
opinion for lack of jurisdiction. This is the Fifth
Circuit’s approach to cases in which the Court
discovers, prior to issuing the mandate, that the case
was moot when the panel filed its initial opinion. Mr.
Rice also respectfully requests that this Court vacate
the district court’s judgment and cause the case to be
dismissed. In the alternative, should this Court
determine that the case is not moot, Mr. Rice
respectfully requests that the Court order full briefing
so that he may with the advantage of counsel have the
opportunity to meaningfully confront the panel’s
argument—which relied on cases that Mr. Rice never
discussed in his initial pro se appellate brief.
PROCEDURAL HISTORY
On April 15, 2020, Mr. Rice filed this lawsuit
challenging his pretrial confinement in the Harris
County Jail and seeking “release . . . on his own
recognizance for the pendency of his criminal
23a

proceedings.” Record on Appeal (“ROA”) 4. Mr. Rice
sought, as relief, either a writ of habeas corpus or an
injunction ordering his immediate release. Id.
Mr. Rice’s underlying claim was that his continued
confinement in pretrial detention at the Harris
County Jail violated the Fifth Amendment’s Due
Process Clause. Id. at 4-8. He alleged that he was at
increased risk of a serious adverse outcome were he to
contract COVID-19 due to his underlying health
conditions, including asthma and hypertension. Id. at
4, 6. He further alleged that his pretrial detention at
the Harris County Jail “exposed [him] to a substantial
risk of serious harm.” Id. at 7. In support of this
contention, he highlighted specific risks he faced
during his detention at the Harris County Jail. Id. at
6-7; see also id. at 11 (Mr. Rice’s declaration). Finally,
Mr. Rice alleged that his ongoing detention by Harris
County demonstrated that the Harris County Sheriff
disregarded the risk that COVID-19 posed to Mr. Rice.
Id. at 7-8.
On April 28, 2020, the district court dismissed with
prejudice Mr. Rice’s complaint, which it construed as
a civil rights complaint pursuant to 42 U.S.C. § 1983
and not a petition for a writ of habeas corpus. Id. at
18, 20, 23. This appeal followed in May 2020. Id. at 24.
This Court docketed Mr. Rice’s opening brief in this
appeal on October 1. The Sheriff of Harris County did
not file a brief in response.
Mr. Rice was thereafter sentenced to state prison
and transferred from Harris County Jail to TDCJ
custody on December 15, 2020. Mr. Rice remains in
TDCJ custody at the Gist State Jail in Beaumont,
Texas. Mr. Rice’s address at the Gist State Jail is
24a

listed on this Court’s docket.
On February 2, 2021, this Court issued a published
opinion in this litigation, affirming the district court’s
denial of relief. Doc. 00515730526 at 2. This Court
construed Mr. Rice’s claim as sounding in habeas and
concluded that the Court “thus ha[d] jurisdiction over
the case.” Id. This Court understood Mr. Rice to be, at
the time the decision issued, “a detainee in the Harris
County, Texas, jail awaiting trial.” Id. at 1.
ARGUMENT
I. Rehearing Is Warranted Due to Mootness.
Rehearing is warranted because this appeal was
moot at the time of the panel’s original decision, due
to Mr. Rice’s transfer to TDCJ custody. As described
above, the panel appears to have believed that Mr.
Rice remained in pretrial detention at the Harris
County Jail in February 2021. In fact, Mr. Rice had
already been sentenced and transferred to TDCJ
custody pursuant to that sentence, in December 2020.
The appeal was therefore clearly moot at the time of
decision. As a result, the appropriate course of action
is for this Court to vacate its prior opinion, vacate the
district court’s judgment, and remand the case with
instructions for dismissal. United States v. Miller, 685
F.2d 123, 124 (5th Cir. 1982) (per curiam).
“Mootness . . . is a fundamental bar to judicial
review that must be accounted for at all stages of a
proceeding, and applies in habeas as in any other type
of litigation.” Jackson v. Vannoy, 981 F.3d 408, 416
(5th Cir. 2020) (citation and internal quotation marks
omitted). Because it is a jurisdictional matter, this
Court must consider mootness, “on its own motion, if
25a

necessary.” Mosley v. Cozby, 813 F.2d 659, 660-61 (5th
Cir. 1987) (per curiam) (dismissing pro se appeal due
to lack of jurisdiction); United States v. HerediaHolguin, 823 F.3d 337, 340 (5th Cir. 2016) (mootness
is jurisdictional).
This appeal is clearly moot. Mr. Rice is no longer a
pretrial detainee at the Harris County Jail in the
custody of the Harris County Sheriff. Instead, he is
incarcerated at the Gist State Jail in Beaumont,
Texas, in the custody of TDCJ— and has been since
December 2020. In this litigation, Mr. Rice sought his
immediate release only from the Harris County Jail in
light of the danger posed by his continued detention in
pretrial custody by the Harris County Sheriff
notwithstanding the risk of contracting COVID-19.
ROA 4. Mr. Rice is no longer detained there and, thus,
is no longer challenging the fact of his detention there.
Fifth Circuit precedent is clear: once a petitioner
who has sought habeas relief in the form of release
from pretrial detention has left pretrial custody, the
litigation is moot. For example, in Powers v. Schwartz,
587 F.2d 783 (5th Cir. 1979) (per curiam), this Court
held that because the petitioner was “no longer a
pretrial detainee,” her challenge to her pretrial
detention predicated on the unconstitutionality of the
state’s pretrial bail scheme for certain detainees was
moot. Id. at 783-84. Other Fifth Circuit opinions
confirm that once pretrial detention ends, habeas
claims stemming from that detention are moot.
Fassier v. United States, 848 F.2d 1016, 1018 (5th Cir.
1988) (habeas request for pretrial release moot
following conviction); Yohey v. Collins, 985 F.2d 222,
228-29 (5th Cir. 1993) (pretrial habeas claims mooted

26a

by conviction). 1 This is the rule in other circuits as
well. E.g., Jackson v. Clements, 796 F.3d 841, 843 (7th
Cir. 2015) (“Once Mr. Jackson was convicted, the
claims concerning his pre-trial confinement became
moot.”); Thorne v. Warden, Brooklyn House of
Detention for Men, 479 F.2d 297, 299 (2d Cir. 1973)
(“Since Thorne is now held as a convicted defendant
rather than merely on a criminal charge not yet
brought to trial, the issue as to the legality of his
continued pretrial detention has been mooted.”). Mr.
Rice’s conviction and transfer out of pretrial detention
at the Harris County Jail to incarceration by TDCJ
mooted his case.
The Fifth Circuit has likewise clearly held that
transfer to another place of detention moots claims
that arise based on the initial location of detention,
including those brought in habeas. Hernandez v.
Garrison, 916 F.2d 291 (5th Cir. 1990), for instance,
held that claims brought in habeas regarding
overcrowding, denial of medical treatment, and law
library access at a particular federal prison became
moot on transfer to a different prison. Id. at 293. This
logic applies a fortiori to Mr. Rice’s transfer from
Numerous unpublished Fifth Circuit decisions likewise confirm
that pretrial habeas claims, including those seeking release from
pretrial detention, become moot following conviction. United
States v. Route, 65 F. App’x 508 (5th Cir. 2003) (unpublished op.)
(appeal of pretrial detention order mooted by conviction); United
States v. Heard, 192 F.3d 125 (unpublished op.) (same);
Henderson v. Criminal Dist. Ct. No. 3, 210 F.3d 366 (5th Cir.
2000) (unpublished op.) (habeas request for pretrial “immediate
release” moot following conviction); Martinez v. Atkinson, 678 F.
App’x 218, 219 (5th Cir. 2017) (unpublished op.) (habeas request
for pretrial release mooted by conviction); United States v.
Frazier, 220 F. App’x 294, 295 (5th Cir. 2007) (unpublished op.)
(same).

1

27a

detention at the Harris County Jail, in the custody of
the Harris County Sheriff, to incarceration at a state
prison, in the custody of TDCJ. Cf. Rumsfeld v.
Padilla, 542 U.S. 426, 434-35 (2004) (holding that the
immediate custodian is the appropriate respondent in
habeas litigation).
In sum, because Mr. Rice’s pretrial detention at the
Harris County Jail has ended, the Court’s jurisdiction
over his habeas claim—over a controversy regarding
“the restraint of which [the] petitioner complains”—
has ended as well. Ex parte Baez, 177 U.S. 378, 390
(1900) (emphasis added). And once a habeas petitioner
is transferred to a different facility, the habeas
petition is likewise moot. This Court therefore lacks
jurisdiction to consider Mr. Rice’s claim and lacked
such jurisdiction on February 2, when judgment was
entered. Powers, 587 F.2d at 784. Whether a medically
vulnerable pretrial detainee requires release in light
of the risk posed by COVID-19 at the Harris County
Jail is now no more material to Mr. Rice than to the
general public. See id. (explaining that because the
habeas petitioner was “no longer a pretrial detainee,”
she lacked “‘a personal stake in the outcome of the
controversy as to assure . . . concrete adverseness’”
(quoting Baker v. Carr, 369 U.S. 186, 204 (1962)). 2
2 This Court construed Mr. Rice’s claim as sounding in habeas.
Were the Court to construe it as a claim for injunctive relief
under 42 U.S.C. § 1983, the case would still be moot. Transfer
between facilities moots a claim for injunctive relief hinging on
the location in which an individual is held. E.g., Herman v.
Holiday, 238 F.3d 660, 665-66 (5th Cir. 2001) (claim for
injunctive relief in light of serious health risk posed by
environmental conditions was moot, and the possibility of
transfer back to the original institution was too speculative to
provide relief); Edwards v. Johnson, 209 F.3d 772, 776 (5th Cir.

28a

II.

The Appropriate Disposition is Vacatur of
the Opinion, Vacatur of the District
Court’s Judgment, and Dismissal of the
Action.

In these circumstances, vacatur of this Court’s
published opinion, vacatur of the district court’s
judgment, and dismissal of the action is the proper
course of action. First, this Court was unaware at the
time that the Court entered judgment and issued its
opinion in February 2021 that the case had become
moot. Where, as here, “[b]efore issuance of the
mandate . . . the parties have brought to the attention
of the court facts which render the case moot” and the
Court has issued a published opinion, disposition is
straightforward. Miller, 685 F.2d at 124. The Court
will vacate the published opinion and either dismiss
the appeal or remand with instructions to dismiss. Id.
at 124 (doing so); Shokeh v. Thompson, 375 F.3d 351,
351-52 (5th Cir. 2004) (per curiam) (same).
Additionally, because mootness is due to Mr. Rice’s
transfer from the Harris County Jail to TDCJ custody
rather than Mr. Rice’s own subsequent actions, (1)
vacatur of the district court’s judgment and (2) either
dismissal of the case or remand with instructions to
dismiss is appropriate under United States v.
Munsingwear, Inc., 340 U.S. 36 (1950). As the Fifth
Circuit has explained:
If a claim becomes moot after the entry
of a district court’s judgment and prior to
2000) (claims for injunctive relief moot on transfer); Cooper v.
Sheriff, Lubbock Cty., Tex., 929 F.2d 1078, 1084 (5th Cir. 1991)
(per curiam) (same).

29a

the completion of the appellate review,
we generally vacate the judgment and
remand for dismissal. Munsingwear, 340
U.S. at 39 (observing that, where a case
has become moot on appeal, ‘[t]he
established practice . . . is to reverse or
vacate the judgment below and remand
with a direction to dismiss’). Vacatur of
the lower court’s judgment is warranted
. . . where mootness has occurred through
happenstance, rather than through
voluntary action of the losing party. See
Arizonans for Official English v. Arizona,
520 U.S. 43, 71 (1997) (‘Vacatur is in
order when mootness occurs through
happenstance—circumstances
not
attributable to the parties.’).
Murphy v. Fort Worth Indep. Sch. Dist., 334 F. 3d 470,
470-71 (5th Cir. 2003) (vacating district court’s
judgment where mootness occurred due to party’s
graduation from high school).
In fact, the Fifth Circuit has taken precisely this
course of action in a case identical in all relevant
respects to this one, involving a habeas appeal by a
pro se petitioner. The Fifth Circuit originally
published an opinion in a pro se petitioner’s appeal of
the denial of a habeas petition that sought his release
without having to post a $5,000 bond. Shokeh, 375
F.3d at 351. After the opinion was filed but before the
mandate issued, the Court learned that two months
before it had filed its opinion, the petitioner had been
released without bond—meaning the case had been
moot before the opinion was filed. Id. The Court
therefore vacated its opinion and, pursuant to
30a

Munsingwear, vacated the district court’s ruling and
dismissed the case. Id. at 351-52.
The same disposition as in Shokeh should obtain
here. This Court should vacate its published opinion
that it lacked jurisdiction to issue. Pursuant to
Munsingwear, the Court should also vacate the
district court’s judgment and either dismiss outright
or remand for dismissal.
III.

The Appropriate Disposition is Vacatur
of the Opinion, Vacatur of the District
Court’s Judgment, and Dismissal of the
Action.

Finally, if the Court for any reason determines that
Mr. Rice’s appeal is not moot, then rehearing with an
order for full briefing and argument on the merits is
warranted. Mr. Rice’s pro se appeal raises an
important question on a novel issue in this Circuit:
whether a pretrial detainee may obtain release in
habeas where the custodian chooses to continue to
hold that person in custody, exposing that person to
the risk of COVID-19 in that particular jail, during the
pandemic.
This question is also contested. An unpublished
decision of this Court prior to this published opinion
concluded that this kind of claim may be brought in
habeas “because a favorable ruling . . . would
accelerate . . . release.” Cheek v. Warden of Fed. Med.
Ctr., No. 20-10712, 2020 WL 6938364 at *2 (5th Cir.
Nov. 24, 2020) (unpublished op.). The Cheek panel
reached a contrary conclusion to this one. In doing so,
it directly cited two cases that this panel likewise
did—Carson v. Johnson, 112 F.3d 818 (5th Cir. 1997),

31a

and Preiser v. Rodriguez, 411 U.S. 475 (1973)—and
one that this panel did not engage with—Coleman v.
Dretke, 409 F.3d 665 (5th Cir. 2005). Additionally, as
this Court’s published opinion notes, there is at least
one fellow circuit that has likewise concluded that
such claims may be brought in habeas. Doc.
00515730526 at 3 n.2 (citing Wilson v. Williams, 961
F.3d 829, 837-39 (6th Cir. 2020)); see also Cheek, 2020
WL 6938364 at *2 (citing Wilson and also noting
similar reasoning in Medina v. Williams, 823 F. App’x
674 (10th Cir. 2020)).
But, despite these contrary decisions both from
this Court and from a fellow circuit implicating a
circuit split, the stakes for those in pretrial detention
who are vulnerable to severe illness or death from
COVID-19, and the highly complex nature of the legal
question involved, this Court lacked the benefit of
meaningful briefing in reaching its decision in this
litigation. Mr. Rice originally litigated this case pro se.
As he noted in his brief, “Appellant admits not being
well lettered in the law or the terms.” Br. at 4. Mr.
Rice did not even cite in his briefing the cases with
which the panel has engaged: Pierre v. United States,
525 F.2d 933 (5th Cir. 1976); Preiser; Carson; and
Orellana v. Kyle, 65 F.3d 29 (5th Cir. 1995) (per
curiam). In fact, the entirety of Mr. Rice’s briefing on
whether this claim may be brought in habeas
consisted of three sentences and a single citation to an
out-ofcircuit district court case. Br. at 4. Harris
County, for its part, did not file a brief or even enter
an appearance on behalf of the Sheriff. And, as
explained above, the district court did not construe
this case as arising under habeas; nor did it engage
with the question of whether this kind of claim could
be brought in habeas.
32a

This petition for rehearing lacks sufficient space to
do justice to the weighty and complex question
presented here. Ordinarily, a principal brief has a
maximum of 13,000 words, while the entirety of this
petition for rehearing is limited to 3,900. Compare
Fed. R. App. P. 32(a)(7)(B)(i) with Fed. R. App. P.
40(b)(1).
If the Court evaluates the merits of Mr. Rice’s
claim, it should do so with the benefit of a meaningful
presentation,
including
a
reply
to
any
counterarguments presented. In these circumstances,
the opportunity for full briefing on this important
issue implicating a constitutional claim is warranted.
Cf. Garner v. Kennedy, 713 F.3d 237, 244 (5th Cir.
2013) (holding that two prior circuit cases “are not
controlling here” where the prior plaintiffs were pro se
and had not put forward contrary evidence or the
arguments proffered in the instant case).
CONCLUSION
This Court should grant the petition for rehearing,
determine that this case is moot, vacate the published
opinion, vacate the district court’s decision, and cause
the action to be dismissed.

Dated: March 2, 2021

33a

APPENDIX G
UNITED STATES
COURT OF APPEALS FOR THE FIFTH
CIRCUIT
NEW ORLEANS, LOUISIANA
SKYLER THOMAS RICE, Plaintiff—Appellant, versus
ED GONZALEZ, SHERIFF OF HARRIS COUNTY,
Defendant—Appellee.
Docket No. 20-20263
[Filed February 2, 2021]
Before JONES, SMITH, and ELROD, Circuit Judges.
EDITH H. JONES, Circuit Judge:
Appellant Rice, a detainee in the Harris County,
Texas, jail awaiting trial, filed what he described as a
petition for writ of habeas corpus seeking release from
pretrial custody because, he contended, no conditions
at the jail were sufficient to protect his constitutional
rights in the midst of the COVID-19 crisis. Some
confusion ensued when his petition and a separate
memorandum in support of either “a writ of habeas
corpus or an injunction” were mishandled in the
clerk’s office. Ultimately, the district court denied
relief regardless whether the petition was brought
under federal habeas law, 28 U.S.C. § 2241, or civil
rights law, 42 U.S.C. § 1983. Rice has appealed,
insisting that his petition sounds in habeas. He
contends he should be released from custody because,
34a

given health problems including asthma and
hypertension, he is at a high risk for contracting the
virus, yet jail conditions make it exceedingly difficult,
if not impossible, to practice proper hygiene and social
distancing. 1
We affirm the denial of relief on the following
basis. We construe Rice’s petition, at his behest, as
seeking habeas relief, and thus have jurisdiction over
the case. But we also conclude that the Great Writ
does not, in this circuit, afford release for prisoners
held in state custody due to adverse conditions of
confinement. Rice has not stated a claim for relief.
Fed. R. Civ. P. 12(b)(6).
In Pierre v. United States, 525 F.2d 933, 935-36 (5th
Cir. 1976), this court held that, “[s]imply stated,
habeas is not available to review questions unrelated
to the cause of detention. Its sole function is to grant
relief from unlawful imprisonment or custody and it
cannot be used properly for any other purpose.” See
generally Preiser v. Rodriguez, 411 U.S. 475, 500, 93
S. Ct. 1827, 1841 (1973) (“[W]e hold today that when
a state prisoner is challenging the very fact or
duration of his physical imprisonment, and the relief
he seeks is a determination that he is entitled to
immediate release or a speedier release from that
imprisonment, his sole federal remedy is a writ of
habeas corpus.”) As we noted in Carson v. Johnson,
“[i]f
‘a
favorable
determination…would
not
automatically entitle [the prisoner] to accelerated
release,’…the proper vehicle is a § 1983 suit.” 112 F.3d
818, 820-21 (5th Cir. 1997) (quoting Orellana v. Kyle,
65 F.3d 29, 31 (5th Cir. 1995) (per curiam)). Both
Carson and Orellana dealt with parole procedures
In fact, a few months after filing this petition, Rice contracted
COVID-19, and he survived.
1

35a

that, if modified by the courts, would enhance a
prisoner’s eligibility for release but not compel that
result. Similarly, that Rice might more likely be
exposed to COVID-19 during confinement, and that he
may have certain common underlying health
conditions, taken together do not impugn the
underlying legal basis for the fact or duration of his
confinement. Rice seeks an extension of federal
habeas corpus law that this court is not authorized to
grant. 2 AFFIRMED.

At least one other circuit court has held in a published opinion
that Section 2241 provides jurisdiction and potential relief for
federal prisoners to seek COVID-related release from custody.
Wilson v. Williams, 961 F.3d 829, 837-39 (6th Cir. 2020). But this
circuit’s precedential, published case law is otherwise. In any
event, COVID-19 relief claims in this circuit have been handled
pursuant to 42 U.S.C. § 1983. Valentine v. Collier, 956 F.3d 797
(5th Cir. 2020) (Valentine I); Valentine v. Collier, 978 F.3d 154
(5th Cir. 2020) (Valentine II); Marlowe v. LeBlanc, 810 Fed. App’x
302 (5th Cir. 2020).
2

36a

APPENDIX H
UNITED STATES
COURT OF APPEALS FOR THE FIFTH
CIRCUIT
NEW ORLEANS, LOUISIANA
SKYLER THOMAS RICE, Plaintiff—Appellant, versus
ED GONZALEZ, SHERIFF OF HARRIS COUNTY,
Defendant—Appellee.
Docket No. 20-20263
[Filed October 1, 2020]
APPELLANT’S BRIEF
Statement of the Legal Issues
(1) The District Court erred in construing Petitioner’s
Motion for Preliminary Injunction as a civil rights
complaint.
(2) The District Court erred in counting the dismissal
of the misconstrued motion as a strike.
(3) The District Court should have allowed Appellant
the opportunity to withdraw or modify the
misconstrued filing.
Statement of the Case
In this case Skyler Rice, Petitioner/Appellant filed
a writ of habeas corpus pursuant to 28 § 2241 in the
District Court along with a motion for a preliminary
injunction. Somehow the Motion for Preliminary
Injunction got filed as a separate cause and filed as a
civil rights complaint pursuant 42 USC § 1983. The
37a

Motion for Preliminary Injunction was a motion
requesting immediate release from confinement due
to their being no conditions of confinement that did
not violate my constitutional rights. The 28 USC §
2241 was the only vehicle for which Petitioner sought
relief (i.e. injunction relief).
ARGUMENT
(1) The District Court erred in construing Petitioner’s
Motion for Preliminary Injunction as a civil rights
suit.
Petitioner filed a writ of habeas corpus pursuant to
28 U.S.C. § 2241 and included a motion for
preliminary injunction seeking his immediate release
from confinement, as there not being any condition of
confinement that would not violate his due process
rights or prevent irreparable constitutional injury.
This being because Petitioner has underlying health
conditions that make him extra vulnerable to loss of
life or health from COVID-19. Petitioner’s Motion for
Preliminary Injunction was to be filed in conjunction
with his 2241 as Petitioner sought release in the form
of immediate release which is only cognizable through
habeas corpus and not civil rights complaint.
Therefore the District claims its “Order of Dismissal”
the civil rights action was “dismissed for failing to
state a claim for which relief may be granted.” Had the
District Court properly construed the filing as an
application for writ of habeas corpus brought under
2241, the relief requested could have been granted, as
in Malam v. Adducci 2020 US District LEXIS 59407
which Petitioner sought to follow. The 2241 and
Motion for Preliminary Injunction were granted as
well as several other interveing Plaintiff’s request for
the same relief. Appellant admits not being well

38a

lettered in the law or the terms as a result used
Plaintiff and Petitioner interchangeably.
(2) The District Court erred in counting the dismissal
of the Motion for Preliminary Injunction as a
strike.
Petitioner did not file a civil rights complaint
pursuant to 42 § 1983, but rather of writ of habeas
corpus pursuant to 28 § 2241 and motion for
preliminary injunction requesting relief in the form of
immediate release. A strike was counted against
Appellant in the instant case due to the misconstruing
of this motion as a civil rights complaint. A strike is
not normally counted against a Petitioner who
proceeds via 2241. In Heid v. Aderhold, 2020 U.S.
Dist. LEXIS 144656 it was stated “currently, the
prevailing approach in the majority of circuits to have
addressed the issue is not to count dismissals of
habeas petitions as strikes.” See Jones v. Smith, 720
F.3d 142, 146-47 (2d Cir. 2013); Paige v. Bacarisse, 80
F. Appx 299, 300 (5th Cir. 2003); Andrews v. King, 398
F.3d 1113, 1122-23 (9th Cir. 2003); Jennings v.
Nationa Cty. Detention Ctr Med. Facility, 175 F.3d
775, 779 (10th Cir 1999); Mitchell v. Bureau of Prisons,
587 F.3d 415, 418, 388 U.S. App D.C. 346 (D.C. Cir
2007). Habeas petitions are not included under the
PLRA. See Kincaid v. Sparkman, 117 F.3d 949, 951
(6th Cir. 1997). In Kincaid, the Court held that the
term “civilization” in § 1915 does not include habeas
petitions. Therefore Appellant believes the District
Court erred in counting the Dismissal as a strike
against him.
(3) The District Court should have allowed Appellant
the opportunity to withdraw or modify the
misconstrued filing.

39a

The District Court immediately ordered a
dismissal of Appellants suit, which was filed on April
15, 2020 and dismissed on April 28, 2020. The Court
did not request any clarification or give Appellant an
opportunity to refile the suit. Appellant wrote the
District Court and requested the District Court
reconsider dismissing the suit which the District
Court denied.
CONCLUSSION
Appellant respectfully request that the Order of
Dismissal and the strike imposed be reversed that the
Appellant’s suit be withdrawn and he be allowed to
refile his 2241 at a later time.
9/27/20
/s/ Skyler Rice

40a

APPENDIX I
UNITED STATES
DISTRICT COURT FOR THE SOUTHERN
DISTRICT OF TEXAS
HOUSTON DIVISION
SKYLER THOMAS RICE, Plaintiff, v. ED GONZALEZ,
SHERIFF OF HARRIS COUNTY, Defendant.
Docket No. 4:20-cv-01354
[Filed April 28, 2020]
ORDER OF DISMISSAL
Plaintiff Skyler Thomas Rice filed a motion for a
preliminary injunction. The Court construed the
motion as a civil rights complaint under 42 U.S.C. §
1983 that seeks injunctive and equitable relief to
secure his release, presumably on bond during the
duration of the COVID-19 global pandemic.
Because he is an inmate who proceeds in forma
pauperis, the Court is required by the Prison
Litigation Reform Act (the “PLRA”) to scrutinize the
complaint and dismiss the case, in whole or in part, if
it determines that the action is frivolous, malicious,
fails to state a claim upon which relief may be granted,
or seeks monetary relief from a defendant who is
immune from such relief. See 28 U.S.C. § 1915A(b); 28
U.S.C. § 1915(e)(2)(B). For the reasons below,
Plaintiff’s request for preliminary injunctive relief is
denied and the civil rights action dismissed for failing
to state a claim for which relief may be granted.

41a

I.

Background

As stated in his motion for a preliminary
injunction, Plaintiff is confined at the Harris County
Jail. See Dkt. #1 at 1. Plaintiff alleges that he remains
in custody pursuant to charges for possession of a
controlled substance. Id. Plaintiff alleges that he is
asthmatic and has hypertension. Id. Plaintiff alleges
that these conditions place him at a higher risk of
death from the COVID-19 global pandemic. Id.
Plaintiff alleges that the common preventative
measures of social distancing and excessive hygiene
are exceedingly difficult if not impossible to
accomplish at the Harris County Jail because he
shares toilets, sinks, phones, and showers with other
inmates. Id. As stated above, Plaintiff seeks injunctive
relief in the form of an order securing his immediate
release from the jail. Id. at 6.
II.

Discussion

Title 42, section 1983, authorizes a “suit in equity,
or other proper proceeding for redress” against any
person who, under color of state law, “subjects, or
causes to be subjected, any citizen of the United States
. . . to the deprivation of any rights, privileges, or
immunities secured by the Constitution.” See Nelson
v. Campbell, 541 U.S. 637, 643 (2004). However, a civil
rights complaint pursuant to § 1983 must yield to the
more specific federal habeas statute, with its
attendant procedural and exhaustion requirements,
when an inmate seeks injunctive relief that challenges
the fact of his conviction or the duration of his
sentence. Id. These claims fall within the “core” of
habeas corpus and are thus not cognizable when
brought pursuant to § 1983. Id. Constitutional claims
that merely challenge the conditions of a prisoner’s

42a

confinement may brought pursuant to § 1983. Id.
As stated above, Plaintiff seeks injunctive relief
that secures his relief from the Harris County Jail.
This claim is at the “core” of habeas relief, and may
not be brought under a civil rights complaint. While it
is in the Court’s discretion to construe the complaint
as a writ of habeas corpus, such construction would be
inappropriate. First, Plaintiff has a pending writ of
habeas corpus in Case No. 4:20-cv-1356. Second, in
that writ, Plaintiff states that he filed a state
application for a writ of habeas corpus that remains
pending in the state courts. See Rice v. Ed Gonzales,
Case No. 4:20-cv-1356, Dkt. #1 at 5. Therefore,
construing the complaint as a writ of habeas corpus
would be futile as Plaintiff has not exhausted his state
remedies.
Moreover, even if these claims could be brought in
a civil rights complaint under § 1983, to the extent
that Plaintiff seeks injunctive relief, his civil rights
claims are barred by the doctrine set out in Younger v.
Harris, 401 U.S. 37, 43-45 (1971). Younger held that a
federal court may not interfere in an ongoing state
criminal
proceeding
unless
extraordinary
circumstances are present. See Gates v. Strain, 885
F.3d 874, 880 (5th Cir. 2018). Abstention is required
when “(1) the federal proceeding would interfere with
an ‘ongoing state judicial proceeding’; (2) the state has
an important interest in regulating the subject matter
of the claim; and (3) the plaintiff has ‘an adequate
opportunity in the state proceedings to raise
constitutional challenges.’” Bice v. Louisiana Public
Defenders Bd., 677 F.3d 712, 716 (5th Cir. 2012)
(quoting Middlesex Cty. Ethics Comm. v. Garden State
Bar Ass’n, 457 U.S. 423, 432 (1982)).

43a

All three criteria are met in this case. Public
records reflect that Plaintiff is represented by counsel
in his Harris County criminal charges and that the
proceedings remain ongoing. Plaintiff also has filed a
state application for a writ of habeas corpus that also
remains pending, which shows that he has an
adequate state avenue to litigate his claims. Finally,
Plaintiff does not show that the state does not have an
interest unifying their efforts in controlling COVID19, rather than piecemeal court intervention for
prisoners. Moreover, Plaintiff does not otherwise
allege facts showing that his medical conditions make
him so particularly vulnerable that extraordinary
circumstances exist that warrant federal court
intervention in his criminal proceedings. Therefore,
for the reasons stated above, Plaintiff’s complaint is
dismissed pursuant to 28 U.S.C. § 1915(e)(2)(B).
III.

Conclusion

Plaintiff’s civil rights complaint under § 1983 is
DISMISSED with prejudice. This dismissal acts as a
“strike” for the purposes of 28 U.S.C. § 1915(g). The
Clerk’s Office will provide a copy of this order to
Plaintiff. The Clerk will also provide a copy of this
order to the Manager of the Three Strikes List for the
Southern
District
of
Texas
at:
Three_Strikes@txs.uscourts.gov.
SIGNED at Houston, Texas, on Apr 28, 2020.
/s/ David Hittner
DAVID HITTNER
United States District Judge

44a

APPENDIX J
UNITED STATES
DISTRICT COURT FOR THE SOUTHERN
DISTRICT OF TEXAS
HOUSTON DIVISION
SKYLER THOMAS RICE, Plaintiff, v. ED GONZALEZ,
SHERIFF OF HARRIS COUNTY, Defendant.
Docket No. 4:20-cv-01354
[Filed April 15, 2020]
MEMORANDUM OF LAW IN SUPPORT OF
PETITIONER/PLAINTIFF’S MOTION FOR A
TEMPORARY RESTRAINING ORDER AND
PRELIMINARY INJUNCTION
Statement of the Case
This is an emergency petition challenging
detention because of danger posed to Petitioner Skyler
T. Rice by the COVID-19 Pandemic. Petitioner pleads
that the Court has subject matter jurisdiction over
this case pursuant to Article 1, § 9, Cl 2 of the United
States Constitution Suspension Clause; the Due
Process Clauses of the Fifth and Fourteenth
Amendments to the United States Constitution; 28
U.S.C. § 1331 (federal question); 28 U.S.C. § 1651 (All
Writs Act); and 28 U.S.C. § 2241 (habeas corpus).
Petitioner requests a TRO requiring that Respondents
release him on his own recognizance for the pendency
of his criminal proceedings. Petitioner is seeking
emergency relief in either of two forms: a writ of
45a

habeas
corpus
or
an
injunction
ordering
Respondent/Defendants to immediately release
Petitioner with appropriate precautionary public
health measures on the grounds that his continued
detention violates the Due Process Clause of the Fifth
and Fourteenth Amendments.
Statement of Facts
As stated in the declarations submitted with this
Motion, the Plaintiff/Petitioner is confined at the
Harris County Jail on possession of a controlled
substance charges. The Plaintiff has underlying
health conditions that pose a significant risk of loss of
health and life due to the COVID-19 pandemic.
Petitioner is an asmatic and has hypertension, both of
which place Petitioner at a higher risk of death from
the coronavirus (COVID-19). Social distancing and
hygiene measures are Plaintiff’s only defense against
COVID-19.
These
protective
measures
are
exceedingly difficult, if not impossible at the Harris
County Jail where Petitioner shares toilets, sinks,
phones, showers, eats in communal spaces, and is in
close contact with the many other detainees and
officers. Social distancing of six feet would be
impossible at the Harris County Jail. This concession
supports the conclusion of multiple doctors and public
health experts that “the only viable public health
strategy available is risk mitigation… The public
health recommendation is to release all people with
risk factors from custody given the heigtened risk to
their health and safety.

46a

ARGUMENT
POINT #1
THE PLAINTIFF IS ENTITLED TO
A TEMPORARY RESTRAINING ORDER
AND A PRELIMINARY INJUNCTION
In determining whether a party is entitled to a
temporary restraining order or a preliminary
injunction, courts generally consider several factors:
whether the party will suffer irreparable injury, the
“balance of hardships” between the parties, the
likelihood of success on the merits and the public
interest. Each of these factors favors the grant of this
motion.
A. IRREPARABLE HARM
Petitioner is likely to experience irreparable injury
absent an injunction both in the form of loss of health
and life, and in the form of an invasion of his
constitutional rights.
1. Loss of Health or Life from COVID-19
The on-going COVID-19 Pandemic creates a high
risk that absent an injunction by this Court,
Petitioner will suffer irreparable harm in the form of
loss of health or life as a result of contracting the
COVID-19 virus.
On March 23, 2020, the Centers for Disease
Control and Prevention (CDC) acknowledged that
correctional and detention facilities “present unique
challenges for control of COVID-19 transmission
among incarcerated/detained persons, staff, and
47a

visitors.” Interim Guidance on Management of
Coronavirus Disease 2019 (COVID-19) in Correctional
and Detention Facilities. Centers for Disease Control
(Mar. 23, 2020) https://www.cdc.gov/coronavirus/
2019-ncov/community/correction-detention/guidancecorrectional-detention.html.
Hereinafter
“CDC
Guidance 3/23/2020.” Specifically, the CDC noted that
many detention conditions create hightened risk of
danger to detainees, these include: low capacity for
patient volume, insufficient quarantine space,
insufficient
on-site
medical
staff,
highly
congregational environments, inability of most
patients to leave the facility, and limited ability of
incarcerated/detained persons to exercise effective
disease prevention measures (e.g., social distancing
and frequent hand-washing).
Though the CDC has recommended public health
guidance for detention facilities and though the Harris
County Jail had indeed implemented measures
designed to prevent spread of the disease, these
measures are inadequate to sufficiently decrease the
substantial likelihood that Petitioner will contract
COVID-19. As prison officials are beginning to
recognize around the country, even the most stringent
precautionary measures – short of limiting detained
population itself, – simply cannot protect detainees
from the extremely high risk of contracting this
unique and deadly disease. For example, on April 1,
2020, the Rikers Island Jail Complex’s Chief
Physician acknowledged that “infections are soaring”
despite the facility’s “following Centers for Disease
Control and Prevention guidelines and having moved
mountains to protect our patients.” Miranda Bryant,
“Coronavirus spread at Rikers is a ‘public health
disaster’, says jail’s top doctor.” The Guardian (April
48a

1,
2020).
https://www.theguardian.com/usnews/2020/apr/01/rikers-island-jail-cornaviruspublic-health-disaster.
Petitioner is 37 years of age and suffers from the
following conditions, all most all of which place him at
an increased risk of dire outcome from contracting the
COVID-19 virus: astma, hypertension, PTSD,
Depression, nicotine and opioid addiction.
See Centers for Disease Control, Groups at Higher
Risk for Severe Illness, (Apr. 2, 2020),
https://www.cdc.gov/coronavirus/2019-ncov/needextra-precautions/groups-at-higher-risk.html (noting
that “people of all ages with underlying medical
conditions are at higher risk for severe illness,
particularly if the underlying medical conditions are
not well controlled”). Additionally, Respondents have
confined Petitioner in an environment where he
shares toilets, sinks, phones, and showers, eats meals
in communal spaces, and is in close contact with the
many other detainees, officers, and visitors.
Petitioners involuntary interaction with purportedly
asymptomatic guards who rotate shifts is also a
significant factor. to exposure.
These are many of the conditions that the CDC has
identified as being particularly likely to increase
COVID-19 transmissions in detention facilities. CDC
Guidance 03/23/2020. For these reasons the
Petitioners confinement at the Harris County Jail
renders him substantially likely to contract COVID19 and his severe health conditions render him
substantially likely to suffer irreparable harm or
death as a result.

49a

2. Violation of Constitutional Rights
Petitioner’s Fifth Amendment Claim triggers a
finding that the Petitioner will suffer irreparable
harm absent an injunction. Petitioner alleges that in
subjecting him to detention conditions that amount to
punishment and that fail to ensure his safety and
health Respondents are subjecting him to a
substantial risk of serious harm in violation of his
rights under the Due Process Clause. The alleged
violation of a Constitutional Right is sufficient for a
court to find irreparable harm. See Overstreet v.
Lexington-Fayette Urban Cty, Gov., 305 F.3d 566, 578
(6th Cir. 2002) (citing Connection Distrib. Co. v. Reno,
154 F.3d 281, 288 (6th Cir. 1998). See also Rhinehart
v. Scott, 509 Fed. Appx. 510, 514 (6th Cir. 2018)
(suggesting that allegations of “continuing violation of
Eigth Amendment Rights” would trigger a finding of
irreparable harm). Petitioner is likely to succeed on
the merits of this Fifth Amendment Claim. Mitchell v.
Cuomo, 748 F.2d 804, 806 (2nd Cir. 1984) (when an
alleged deprivation of a Constitutional Right is
involved, most courts hold that no further showing of
irreparable injury is necessary.”).
B. LIKELIHOOD OF SUCCESS ON THE
MERITS
Petitioner is likely to succeed on the merits of his
claim that his continued detention during the COVID19 Pandemic violates his Fifth Amendment rights.
The Due Process Clause of the Fifth Amendment to
the United States Constitution forbids the
government from depriving a person of life, liberty, or
property without due process of law. US Const.
amend. V. The protection applies to all persons within
50a

the United States. As it pertains to Petitioner, the Due
Process Clause prohibits the government from
imposing torture and cruel and unusual punishment
and confinement conditions on non-convicted
detainees. See Bell v. Wolfish, 441 US 520, 535, 99 S.
Ct. 1861, Gov. Ed. 2d 447 (1979). Under the Due
Process Clause a detainee may not be punished prior
to an adjudication of guilt. “This type of Fifth
Amendment claim is analyzed under the same rubic
as Eighth Amendment claims brought by prisoners.”
Villegas v. Metropolitan Government of Nashville, 709
F.3d 563, 565 (6th Cir. 2013). Eighth Amendment
claims require a showing of deliberate indifference.
See Farmer v. Brennan, 511 US 825, 835, 114 S. Ct.
1970, 128 L.Ed 2d 811 (1994), which has both an
objective and a subjective component. Villegas v.
Metro. Gov’t. of Nashville, 709 F. 3d 563, 568, (6th Cir
2013) (citing Harrison v. Ash, 539 F. 3d 510, 518 (6th
Cir. 2008).
1. Objective Component
The objective component is satisfied by showing
that, “absent reasonable precautions an inmate is
exposed to a substantial risk of serious harm.” Richko
v. Wayne Cty., 819 F.3d 907, 915, (6th Cir. 2016) (citing
Amick v. Ohio Dep’t of Rehab. & Corr., 521 Fed. Appx.
354, 361 (6th Cir. 2013). A generalized risk is a
substantial risk. As the Supreme Court explained in
Helling v. McKinney, “We have a great difficulty
agreeing that prison authorities may not be
deliberately indifferent to an inmate’s current health
problems but may ignore a condition of confinement
that is sure or very likely to cause serious illness and
needless suffering the next week or month or year.”
509 US 25, 33, 11 S. Ct. 2475, 125 L.Ed. 2d 22 (1993).
51a

“The Eighth Amendment protects against future
harm to inmates is not a novel proposition.” Id. “It
would be odd to deny an injunction to inmates who
plainly proved an unsafe, life-threatening condition in
their prison on the ground that nothing yet had
happened to them.” Id. The ever-growing number of
COVID-19 outbreaks in prisons and detention
facilities despite a range of precautionary measures
demonstrates that the risk of a COVID-19 outbreak in
Respondent’s facility is significant. By the time a case
is conformed, it will almost certainly be too late to
protect Petitioner’s constitutional rights. Petitioner,
so long as he remains detained, is therefore exposed to
a substantial risk of serious harm.
2. Subjective Component
The subjective component is demonstrated by
showing that “(1) the official being sued subjectively
perceived facts from which to infer a substantial risk
to the prisoner, (2) the official did in fact draw
inference, and (3) the official then disregarded that
risk.” 819 F.3d at 915-16 (citing Rouster v. Cty. Of
Saginaw, 749 F.3d 437, 446 (6th Cir. 2014) “Because
government officials do not readily admit the
subjective component of this test, it may be
demonstrated in the usual ways, including inference
from circumstantial evidence.” Richko, 819 F.3d at
916 (citing Dominguez v. Corr. Med. Servs., 555 F.3d
543, 550 (6th Cir. 2009). Additionally “a fact-finder
may conclude that a prison official knew of a
substantial risk from the very fact that the risk was
obvious.” Farmer, 511 U.S. at 842. Rightfully so: the
above analysis pertaining to the risk of irreparable
injury reveals that the substantial risk to Petitioner is
obvious. Farmer, 511 U.S. at 842.
52a

In light of Petitioner’s underlying health
conditions, he is not ensured anything close to
“reasonable safety.” Farmer, 511 U.S. at 844. The only
reasonable response by Respondent is the release of
Petitioner; any other response demonstrates a
disregard of the specific, severe, and life-threatening
risk to Petitioner from COVID-19.
For the same reasons, Petitioner’s continued
detention cannot “reasonably relate to any legitimate
government purpose.” Bell v. Wolfish, 441 U.S. 520,
536-39, 99 S. Ct. 1861, 60 L.Ed. 2d 447 (1979) (holding
that pretrial detention not reasonably related to a
legitimate goverment purpose must be considered
punishment and therefore contrary to the Fifth
Amendment). Petitioner faces significant risk of death
due to COVID-19. Accordingly his continued detention
at the Harris County Jail is both unrelated and
contrary to the government purpose of carrying out his
criminal proceedings. The probability of success that
must be demonstrated is inversely proportional to the
amount of irreparable injury the movants will suffer
absent the stay.” Northeast Ohio Coalition for
Homeless and Service Employees Intern. Union, Local
1199, 467 F.3d at 1009 (6th Cir. 2006). Given the risk
and severity of irreparable harm to Petitioner and the
weight of public health evidence indicating release as
the only reasonable option under the facts Petitioner
has met his burden with respects to the merits of his
claim. As explained above, Petitioner has shown a
likelihood of success on the merits of his action/claim
that given the extraordinary nature of the COVID-19
pandemic, no set of possible conditions of confinement
would be sufficient to protect his Fifth Amendment
rights. Release from custody represents the only
adequate remedy in this case, and it is within this
53a

Court’s broad equitable power to grant it. See Swann
v. Charlotte-Mecklenburg Bd. of Educ., 402 U.S. 1, 1516, 91 S. Ct. 1267, 28 L.Ed. 2d 554(1971) (once a right
and a violation have been shown, the scope of a district
court’s equitable powers to remedy past wrongs is
broad, for breadth and flexibility are inherent in
equitable remedies.”).
3. Qualified Immunity
Qualified immunity is unavailable as a defense in
cases seeking injunctive relief. See Pearson v.
Callahan, 555 U.S. 223, 242, 129 S. Ct. 808, 172 L.Ed.
2d 565 (2009) (noting that qualified immunity defense
is not available in “suits against individuals where
injunctive relief is sought in addition to or instead of
damages”); Harlow v. Fitzgerald, 457 U.S. 800, 806,
102 S.Ct. 2727, 73 L.Ed. 2d 396 (1982) (describing
qualified immunity as “immunity from suits for
damages”). Because Petitioner here seeks only
declaratory and injunctive relief, qualified immunity
does not apply.
C. BALANCE OF EQUITIES AND PUBLIC
INTEREST
When the government opposes the issuance of a
temporary restraining order the final two factors –
The Balance of Equities and The Public Interest –
merge, because “the government’s interest is the
public interest.” Pursuing America’s Greatness v. Fed.
Election Comm’n, 831 F.3d 500, 512, 425 U.S. App.
D.C. 31 (D.C. Cir. 2016) (citing Nken v. Holder, 556
U.S. 418, 435, 129 S.Ct. 1749, 173 L.Ed. 2d 550
(2009)).
The public interest favors Petitioner’s release
54a

because of the risk that Petitioner’s constitutional
rights will be deprived absent an injunction. “It is
always in the public interest to prevent the violation
of a party’s constitutional rights.” GCV Lounge Inc. v.
Mich. Liquor Control Comm., 23 F.3d 1071, 1079, (6th
Cir. 1994).
Additionally, Petitioner’s release will protect
public health. Given the highly unusual and unique
circumstances posed by the COVID-19 virus pandemic
and ensuing crisis, “the continued detention of aging
or ill detainees does not serve the public’s interest.”
Basank, 2020 US Dist. LEXIS 53191, 2020 WL
1481503 at 6; see also Fraihat v. U.S. Imm. and
Customs Enforcement, 5:19 Civ. 1546, ECF No. 81-11
(C.D. Cal. Mar. 24, 2020). (“the design and operation
of detention settings promotes the spread of
communicable diseases such as COVID-19”); Castillo
v. Barr, CV-20-00605-TJH, 2020 US Dist. LEXIS
54425 (C.D. Cal. 2020). Protecting public health and
safety is in the public interest. See Neinast v. Bd. of
Trustees, 346 F.3d 585, 592 (6th Cir. 2003) (recognizing
public health and safety as legitimate government
interests).
The public interest and balance of equities demand
that the Court protect Petitioner’s constitutional
rights and the public health over the continued
enforcement of a detention provision that, as applied
to Petitioner, is unconstitutional. The remaining
factors counsel granting Petitioner relief.

55a

POINT II
THE PLAINTIFF/PETITIONER SHOULD NOT
BE REQUIRED TO POST SECURITY
Usually a litigant who obtains interim injunctive
relief is asked to post security. Rule 65(c), Fed. R. Civ.
P. However, the Plaintiff is an indigent prisoner and
is unable to post security. The Court has discretion to
excuse an impoverished litigant from posting security.
Elliott v. Kiesewetter, 98 F.3d 47, 60 (3d Cir. 1996)
(stating that district courts have discretion to waive
the bond requirement contained in Rule 65(c) of the
Federal Rules of Civil Procedure if “the balance of the
equities weighs overwhelmingly in favor of the party
seeking the injunction”); Moltan Co. V. Eagle-Pitcher
Industries, Inc., 55 F.3d 1171, 1176 (6th Cir. 1995). In
view of the serious medical danger confronting the
Plaintiff, the Court should grant the relief requested
without requiring the posting of security.
CONCLUSION
Because all factors weigh in favor of issuing
emergency injunctive relief, Petitioner prays this
Court GRANT his Motion for Temporary Restraining
Order – ordering Petitioner’s immediate release from
Respondent’s custody.
04/11/2020
/s/ Skyler T. Rice
Skyler Thomas Rice #01956417
Harris County Jail – 5H1
1200 Baker St.
Houston, TX 77002

56a

